<html>
<title> - INDIAN TRIBAL DETENTION FACILITIES</title>
<body><pre>[Senate Hearing 108-628]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-628

                   INDIAN TRIBAL DETENTION FACILITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

 OVERSIGHT HEARING ON ISSUES AND PROBLEMS RELATED TO THE CONDITIONS IN 
                   INDIAN TRIBAL DETENTION FACILITIES

                               __________

                             JUNE 23, 2004
                             WASHINGTON, DC


                    U.S. GOVERNMENT PRINTING OFFICE
94-555                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Anderson, David, assistant secretary for Indian Affairs, 
      Department of the Interior.................................     9
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Devaney, Earl, Inspector General, Department of the Interior.     2
    Guardipee, Fred, council member, chairman, Health, Education 
      and Social Services Committee, Blackfeet Tribal Business 
      Council....................................................    25
    Henke, Tracy, principal deputy assistant attorney general, 
      Department of Justice......................................    13
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     2
    Juan-Saunders, Vivian, chairman, Tohono O'odham Nation.......    18
    MacDonald-Lonetree, Hope, chairman, Navajo Council Public 
      Safety Committee, Navajo Nation............................    20
    Martin, Darrell, president, Fort Belknap Indian Community 
      Council....................................................    24
    Richards, Sr., Howard D., chairman, Southern Ute Tribe.......    16
    Smith, Hon. Gordon, U.S. Senator from Oregon.................     7

                                Appendix

Prepared statements:
    Anderson, David (with attachment)............................    39
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................    31
    Daschle, Hon. Tom, U.S. Senator from South Dakota............    31
    Devaney, Earl................................................    33
    Henke, Tracy (with attachment)...............................   281
    Juan-Saunders, Vivian........................................   304
    MacDonald-Lonetree, Hope (with attachment)...................   311
    Martin, Darrell..............................................    36
    Richards, Sr., Howard D. (with attachment)...................   318
    Steele, John Yellow Bird, president, Oglala Sioux Tribe, Pine 
      Ridge, SD..................................................    37
Additional material submitted for the record:
    Responses to questions from Jane Lyder, Legislative Counsel, 
      Office of Congressional and Legislative Affairs, Department 
      of the Interior, Washington, DC............................   325

 
                   INDIAN TRIBAL DETENTION FACILITIES

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10:15 
a.m. in room 485, Russell Senate Building, Hon. Ben Nighthorse 
Campbell (chairman of the committee) presiding.
    Present: Senators Campbell, Inouye, Johnson, and Smith.

        STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S.
         SENATOR FROM COLORADO, CHAIRMAN, COMMITTEE ON
                         INDIAN AFFAIRS

    The Chairman. We will now convene our hearing for the 
morning. I will tell all of our witnesses who are in the 
audience, though, we are told we are going to have five votes 
in a row at 11:15 a.m., so we have a choice of finishing this 
up by 11:15 or waiting and coming back in about 2 hours from 
now, and I do not think most of our witnesses are going to want 
to do that. So I would ask all of our witnesses to be 
relatively brief. We will include all of your written 
testimony, but if you will try to keep it down to about 5 
minutes apiece or so, I think we can get through it and still 
have some time to ask some questions.
    This committee's oversight hearing is on issues and 
problems related to conditions in tribal detention facilities. 
Several weeks ago, this issue caught my attention when I read a 
series of articles regarding a Federal probe on tribal prison 
deaths in the newspaper, USA Today and other newspapers as 
well.
    The articles spoke about abuse, neglect, and inhumane 
conditions, overcrowding as well as staffing shortages, inmate 
access to weapons and poor prisoner monitoring and supervision. 
In fact, one story reported that the lack of prison monitoring 
resulted tragically in the death of a 16-year-old girl. I 
believe that is not only deplorable, but inexcusable and just 
should not be happening.
    In order to determine exactly what has happened and what is 
happening, and what we can do about it, this morning the 
committee will hear from witnesses from Federal agencies and 
Indian tribes to share their thoughts and experiences with us. 
I will submit my full statement for the record, in light of our 
short time.
    [Prepared statement of Chairman Campbell appears in 
appendix.]
    The Chairman. Senator Johnson, did you have any opening 
statement on this issue before we proceed?

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Mr. Chairman, I would like to make a 
couple of comments. There are numerous problems in Indian 
country today that require immediate attention. Unfortunately, 
we are faced with a crisis surrounding the state of our 
detention facilities.
    If the conditions of our off-reservation facilities were 
found in the same conditions as many of our reservation 
facilities, there would be widespread public outrage. We are 
grateful for new construction going on in my State of South 
Dakota, but it has been a constant battle to receive 
appropriate maintenance and staffing funding.
    One of the prominent problems that needs immediate 
attention is the lack of appropriate care given to juveniles. 
Juveniles must not be held in the same holding cells as adults. 
This is a safety issue, among other things. In Crow Creek, 
young people, many of them juveniles who had attempted or were 
suspected of committing suicide, were being held in the only 
jail facility on the reservation, a condemned adult detention 
facility. That is simply unacceptable. We have to do better to 
address the situation and I look forward to reviewing the 
recommendations that arise as a result of this hearing.
    The Chairman. Thank you, Senator Johnson.
    We will now start with our first witness, Earl Devaney, the 
Inspector General, Department of the Interior, Washington, DC. 
Welcome, Inspector General Devaney. If you would go ahead and 
proceed. As I mentioned, your complete testimony will be in the 
record. You can abbreviate if you wish.

STATEMENT OF EARL DEVANEY, INSPECTOR GENERAL, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Devaney. Thank you, Mr. Chairman. I am pleased to be 
here today to speak about Indian detention centers in Indian 
country.
    In September 2003, my office began an assessment of these 
facilities. I initiated this assessment following a 
conversation with the Chair of the Attorney General's Advisory 
Committee on Indian country, U.S. Attorney Thomas Heffelfinger, 
who had expressed his concerns to me about overcrowding and 
poor conditions in Indian country jails. I then discovered that 
these same concerns have been articulated for years by the 
Department of Justice in a variety of reports. My office had 
also begun to receive anecdotal reports of appalling conditions 
at detention facilities in Indian country.
    With all this information, I felt compelled to address 
these concerns immediately. I would like to point out that we 
began our assessment well before the confirmation of Assistant 
Secretary Anderson and prior to any of the recent media 
disclosures of allegations made by a former BIA law enforcement 
official.
    While we have completed all of our planned site visits, we 
have not finished our analytical work, nor have we even written 
a draft report. However, given the committee's interest in this 
issue, I would gladly share with the committee the same 
concerns I shared with Secretary Norton in April of this year 
when I gave her an interim report on the deplorable conditions 
we were finding at some of these facilities.
    For many years, the BIA's detention program has been 
characterized as drastically understaffed, underfunded, and 
poorly managed. Unfortunately, we have now reached a similar 
conclusion. Simply stated, BIA's detention program is riddled 
with problems, and in our opinion is a national disgrace, with 
many facilities having conditions comparable to those found in 
third world countries.
    Unfortunately, BIA appears to have had a laissez faire 
attitude in regard to these horrific conditions at these 
detention facilities. In most of the 27 facilities we have 
visited, basic jail administration procedures are not followed, 
and many detention managers and their staff have not received 
professional certified training in how to run a detention 
facility. In fact, BIA OLES officials admitted to us that none 
of their detention facilities come close to even meeting BIA 
standards for operations, which supposedly derive from 
nationally recognized detention standards.
    Based on our visits, we discovered that serious incidents 
are almost never communicated up the chain of command. In fact, 
during the last 3-year timeframe, we found well over 500 
serious incidents, including deaths, suicide attempts and 
escapes that were either undocumented or not reported to BIA's 
Office of Law Enforcement Services.
    We learned 10 deaths from the facilities we visited. Five 
of these deaths were suicides and five were non-suicides. 
Inexplicably, only five of these deaths were reported to OLES. 
Among those deaths reported to OLES was the recent death of a 
16-year-old student who died while in a detention cell at the 
Chemawa Indian Boarding School in Oregon. This case is under 
active investigation by my office, in conjunction with the U.S. 
Attorney's office in Portland, OR.
    Based on our findings, suicide attempts appear to be a 
regular occurrence at many of these facilities. At one facility 
in Washington State, there have been an alarming 53 suicide 
attempts within the last 3 years. None of those incidents were 
reported to OLES.
    At many of the facilities, we found multiple suicide 
attempts made by the same inmate. For example, during 2001 an 
individual detained at a detention facility in New Mexico 
attempted to hang himself seven separate times using articles 
of clothing or towels left in the cell. The corrections 
officer's response was quite elementary. If the inmate tried to 
hang himself with his socks, take the socks away. If the inmate 
tried to hang himself with a towel, take the towel away. Until 
finally, the inmate was left in the cell without any clothing 
or any towels.
    For the most part, the corrections officers at these 
facilities convey stories of prisoner escapes with an air of 
casual inevitability. We found that some facilities do not even 
notify local law enforcement of prisoner escapes. This is not 
only disconcerting, but it is irresponsible to allow escaped 
prisoners to travel freely in the community while local law 
enforcement authorities have no information about their 
escapes.
    One of the most common problems we found while visiting 
these facilities is a lack of staffing. This factor has an 
enormous impact on officer safety. In many cases, having only 
one correctional officer on duty per shift is not unusual. It 
is actually common practice. One BIA district commander told 
us, ``every officer here has been assaulted.''
    Aside from the lack of officers on staff, the current 
officers at these facilities are for the most part poorly 
trained. This lack of training not only hinders the officers' 
ability to properly document incidents and follow standard 
procedures, but also leaves the officers unprepared to prevent 
physical harm that may be targeted against them or against 
other inmates. One district commander quipped, ``most BIA 
standards cannot be met, so why even try?''
    In addition to officer safety, the safety of inmates 
themselves must be considered. Officers who are improperly 
trained and who have not undergone a thorough background 
investigation may become a liability. Recently, a corrections 
officer at an Indian youth detention center in Montana was 
convicted of raping a 17-year-old female inmate while 
transporting her to a medical facility.
    During my discussions with the Secretary in April, I made a 
number of recommendations to her, including instituting new 
reporting protocols and the prompt investigation by BIA of any 
serious incidents. I was pleased by her immediate response to 
my briefing. Following our meeting, she tasked Associate Deputy 
Secretary James Cason, along with Assistant Secretary Dave 
Anderson, to begin addressing the concerns that I had raised. 
To assist them in this effort, she also made a request to DOJ 
for an experienced corrections professional from the Bureau of 
Prisons to be detailed to BIA. I am now beginning to detect a 
new sense of urgency about these concerns at BIA.
    Finally, Mr. Chairman, the responsibility for these 
failings we have found at Indian detention facilities cannot be 
attributed to any particular individual or administration. Some 
of these problems are decades old, thus the solutions will not 
be easy to achieve and may take considerable time, effort and 
additional funding. Nothing, however, less than a herculean 
effort to turn these conditions around would be morally 
acceptable.
    Mr. Chairman, this concludes my oral remarks. I would 
welcome the opportunity to answer any questions from you or any 
of the members of the committee.
    [Prepared statement of Mr. Devaney appears in appendix.]
    The Chairman. Thank you, Mr. Devaney. I have several 
questions and I think other members have several, too, and some 
we will put in writing to you.
    First of all, what percent of tribal police or corrections 
officers on reservations attend Federal training through FLETC?
    Mr. Devaney. I think it is actually a requirement, Mr. 
Chairman. The problem is that the moneys that are made 
available for this training are not always there. So you might 
have, for instance, a corrections officer being brought on 
board and not get to that training for 2 or 3 years. We 
actually found cases where officers had been at the facility 
for multiple years without that training. I think the intention 
is to give everybody that training, but it is a matter of money 
and getting the opportunity to send these folks there.
    The Chairman. Give me some feedback on this. I visited one 
reservation and asked them why they were having such retention 
trouble keeping either tribal policemen or corrections 
officers, and I do not know if this is true or not, or if it is 
throughout all Indian country or not, but they told me that 
that particular reservation, the policemen are only law 
enforcement officials when they are on duty, and the 
corrections officers when they were off duty had no police 
powers. Consequently, the police, as an example, would arrest 
someone and then when they got off duty, guess what? The first 
time the people got out that they arrested, they would lay for 
them and there would be some altercation, and the guys that did 
the arresting would end up getting beat up. Did you find 
anything along that line in this investigation?
    Mr. Devaney. To be honest with you, sir, we did not find 
that, but it would not surprise me that that is the situation. 
It is very, very difficult to recruit corrections officers.
    The Chairman. Have you visited any facilities personally, 
the 74 facilities?
    Mr. Devaney. Yes; I had an opportunity to. I wanted to 
visit one because I thought it would be appropriate if I did. 
So I did go with a team out to the Yakama Detention Facility in 
Yakama, WA last month. I could make a few observations. Before 
I was the Inspector General, I spent about 30 years in Federal 
law enforcement. I have been in hundreds, maybe thousands of 
jails, State, local, and Federal during my career.
    I have seen some jails as unclean or in poor condition as 
this jail. But I have never seen jails that are so prone to 
suicide or easy to escape from, and so dangerous to not only 
officers that work in these jails, but dangerous to the inmates 
as well.
    Quite coincidentally, Yakama turned out to have the highest 
number of suicide attempts, 53 in the last 3 years. I can 
recall visiting in a cell with a young woman who told me that 
she had not been outside in over 5 days. I then turned to the 
officer that was giving the tour, and I said, ``well, when can 
she expect to be outside.'' He said, probably not for another 
week.
    The Chairman. Some of those conditions, wouldn't you 
consider a violation of basic civil rights?
    Mr. Devaney. Well, I think so, yes. I think 12 days without 
seeing sunshine in a windowless cell could drive someone to 
attempt suicide. I would note for you that the standards, for 
instance, for the State of Virginia for condemned inmates is 
that they get outside 1 hour a day for 5 days a week. So there 
is quite a parity difference here.
    The Chairman. Of the 74 facilities, 20 are operated by the 
BIA and 46 are operated by tribes under contract. Did your 
auditors find any qualitative differences in how the tribal 
facilities were run or compare with the BIA-operated ones? 
Which ones were in better shape, if there was a conclusion to 
that?
    Mr. Devaney. First of all, as I mentioned earlier, we only 
visited 27 of the 74 facilities. Of those 27, 12 were operated 
by BIA and 15 were 638 facilities. In terms of some of the 
better facilities we found, quite frankly, they were 638 jails. 
We found that some of those jails were, even despite the poor 
condition, the physical conditions of the jails, they actually 
had very good management, former corrections folks running 
those jails. Somehow they were making it happen even over and 
above the lousy maintenance and the poor conditions that we 
found there.
    So from a perspective of some of the better things we saw, 
they were principally at the 638 jails.
    The Chairman. I am glad you mentioned that, because some of 
us think around here that Indians can run their own affairs a 
whole lot better than the Government can anyway. So that is 
good. I live at Southern Ute which has, in my view, one of the 
newer and better-run jails in the country, and that gets done 
under the 638 program.
    You mentioned that most of the facilities you visited 
failed to follow basic jail administrative procedures. Is there 
any national framework for procedures that go out through the 
BIA that tribes adhere to?
    Mr. Devaney. That is something I think BIA's detention 
program is going to have to work on. There are, of course, 
national correctional standards at the Federal level, at the 
State level and most counties have those standards. BIA 
purports to model their standards after those correctional 
standards, but I think a lot of work needs to be done to bring 
those in line.
    The Chairman. And your review found nearly 500 serious 
incidents not being reported to the BIA office or law 
enforcement services. In reading notes provided by staff, I am 
very sorry to say that 41 suicide attempts were attempted in 
the last 3 years in Lame Deer, MT where I happen to be 
enrolled. I was not aware that it was that bad, very frankly.
    Did your auditors find out why these cases were not 
reported, the 500 that were not?
    Mr. Devaney. Well, I think there are probably a variety of 
reasons for that. Sometimes it is a matter of they did not know 
they were supposed to report these incidents. Other times, we 
were told, quite frankly, Mr. Chairman, we rarely found 
correctional officials that had anything good to say about 
BIA's detention program. In fact, in that jail that I visited, 
the Yakama detention facility, the chief told me that he had 
not seen or heard from BIA in 5 years.
    So there is a disconnect there. I am hopeful that the folks 
that the Secretary has put in charge of fixing this problem 
will address those issues.
    The Chairman. Another report I have heard over and over is 
that they do not have adequate separate facilities for men and 
women, and sometimes the interaction between them leads to some 
real problems of rape or intimidation or so on. Did you find 
that also?
    Mr. Devaney. Yes; we did. We found incidents where 
unfortunately female inmates were put in with male inmates, 
inadvertently, but nonetheless it happened, and bad things 
happen when that occurs. Of course, there is the issue that was 
raised earlier on the juvenile facilities, and the fact that 
juveniles almost on a regular basis are housed in some of these 
jails in situations which actually the law forbids them to be 
housed in.
    There is the sight and sound provision in the regulations 
that suggests that juveniles should not be within sight and 
sound of adult prisoners. We found widespread abuse of that 
particular regulation.
    The Chairman. I see. I have some further questions I would 
like to submit in writing, if you would get back to us, but I 
want to move along because of the impending votes.
    Mr. Devaney. Yes, sir.
    The Chairman. Before I yield to our vice chairman, Senator 
Smith has shown up. Did you have any opening comments before we 
move along with our questions?
    Senator Smith. I will put those in the record.
    The Chairman. Okay.
    Senator Smith. I do have some questions.
    The Chairman. All right, fine.
    Senator Inouye.
    Senator Inouye. I just have one question, Mr. Chairman. I 
note that up until fiscal year 2003, the Department of Justice 
was expending about $34 million a year for facilities, and 
suddenly the following year it dropped to $5 million and now it 
is $2 million. Can you explain why?
    Mr. Devaney. I really cannot. I know there is a witness 
from DOJ that is going to follow, so maybe that witness could. 
There is an issue in our minds about the disconnect between the 
facilities that BIA would like to see built in terms of 
priority, and the facilities that actually get the grants at 
the end of the day. At some level, that process needs to work 
better.
    There needs to be a better coordination between DOI and DOJ 
to ensure that the actual facilities that need to be built are 
the ones that are being built, and that there is not a 
difference of opinion between DOI and DOJ. There may be some 
difference of opinion at the end of the day, but a closer 
coordination is clearly called for here. Monies should not be 
given to the best grant writer.
    Senator Inouye. Thank you very much. I would like to submit 
other questions.
    The Chairman. Thank you.
    In the order of appearance, Senator Johnson, you were next.
    Senator Johnson. Thank you, Mr. Chairman, and thank you, 
Mr. Devaney. I think this is very sobering testimony you have 
provided to the committee.
    The only question I would have this morning would be your 
investigation is ongoing. Can you give us any sense of when the 
final report would be issued?
    Mr. Devaney. Sir, we are targeting the end of the summer. I 
would say late August or early September.
    Senator Johnson. Very good. We look forward to that. This 
is one report that I hope will not be one of those gathering 
dust reports, but will be truly an impetus to very major action 
on the part of this committee and this Congress. Thank you.
    The Chairman. Senator Smith.

    STATEMENT OF HON. GORDON SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Mr. Devaney, thank 
you for being here.
    As I listened to your testimony, frankly, I am fearful we 
have an epidemic, and this BIA really needs to get on top of 
this. We need to make sure they have the resources. Normally, 
we do not think of jails as suicide prevention centers, but 
frankly that may be what we have to begin factoring in.
    You mentioned the case of Cindy Sohappy from the Chemawa 
Indian School in Salem, OR. Representing the State of Oregon, I 
have particular concern about what happened there. It is 
clearly not the Department of the Interior's fault that she 
drank so much that she killed herself. But clearly, if we have 
places where we hold them; if education and prevention of 
alcohol abuse have failed and you resort to detention, there 
ought to be some way to monitor, help and medically assist 
those who because of their own choices and actions put 
themselves in such grave danger.
    I echo the comments of all of my colleagues that I hope the 
Department will put in place procedures, systems, and 
facilities that are equal to what is clearly an epidemic 
problem. So I do not know that I have a question other than can 
you give us any more information as to what has happened to 
Cindy, what might be done differently in the future, and then 
adjust the admonition to deal with a crisis.
    Mr. Devaney. Senator, as I mentioned earlier, that case is 
under active investigation. We are working with the U.S. 
Attorney's office, and the U.S. Attorney in Oregon is obviously 
quite interested in this case. So I hesitate to say a whole lot 
about the investigation or where we might be headed. But having 
said that, I personally was shocked to find a detention center 
or a detention cell, if you will, and this was a cell. This was 
like any jail cell in any jail we have ever seen on television, 
at a boarding school, and particularly unmanned by a 
professional. At the time, I think, of her death, there was a 
woman who I understand is some sort of a dormitory counselor 
who could have observed a television screen to see this child 
in crisis, but apparently did not.
    When I was told about this, I was not interested, quite 
frankly, in assessing blame at that level. I am interested in 
knowing who knew about this condition and for how long and why 
did they let it exist. I will stop short of giving you too many 
details, but we are working our way up the chain of command on 
both the law enforcement side and the school side of BIA to 
figure out who knew what and when and how far up that was.
    The Chairman. Thank you, Mr. Devaney. I appreciate your 
time. I am going to ask you to do something for us that I am 
going to ask all of the witnesses today, and that is we 
obviously have a big problem in Indian country with law 
enforcement. If you have any recommendations how we can help 
from the standpoint of framing up legislation. I do not know if 
the answer is just more money, although obviously the resources 
in the form of money certainly help. But if you would give the 
committee some recommendations of how we might try to make it 
better, I would appreciate it.
    Mr. Devaney. I would be glad to do that.
    The Chairman. Thank you.
    Mr. Devaney. Thank you.
    The Chairman. Thank you for being here.
    Our next witnesses will be Dave Anderson, Assistant 
Secretary of Interior; and Tracy Henke, the Deputy Assistant 
Attorney General at the Department of Justice.
    As with the last witness, your complete testimony will be 
in the record. If you would abbreviate, that would be fine.
    Nice to see you, Dave.

  STATEMENT OF DAVID ANDERSON, ASSISTANT SECRETARY FOR INDIAN 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Anderson. Good morning, Mr. Chairman and Mr. Vice 
Chairman, and members of the committee. My name is David 
Anderson, Assistant Secretary for Indian Affairs.
    Thank you for allowing me to speak today about the 
Administration's vision to improve the Bureau of Indian 
Affairs' [BIA] detention center program. Recent events have 
highlighted the need to continue to implement improvements, in 
addition to those changes already underway. The ultimate goal 
is to improve the delivery of services to tribes and 
individuals who are serviced by the Bureau's owned and funded 
detention facilities.
    Until the 1960's, jail construction on Indian lands was 
very limited. The Department of Justice, Law Enforcement 
Administration assistance grants were provided for the 
construction of jails in Indian country. Many of these 
facilities, now 40 years old, are still in operation today. All 
of the detention centers present many challenges such as 
ongoing maintenance and needed improvement to these aging high-
use facilities.
    There are 75 confinement facilities, detention centers, 
jails and other facilities to be referred to in this testimony 
as detention centers, operated by tribal authorities or the 
Bureau of Indian Affairs in Indian country. Thirty-nine 
facilities are Bureau-owned; 19 facilities are Bureau-operated. 
Three of these detention centers do not house inmates and are 
used for law enforcement offices. The remaining 36 detention 
centers are owned and operated by tribes, either independently 
or through Public Law 93-638 contracts or self-governance 
compacts. All of the Indian detention facilities are designed 
for short-term detention and have difficulties accommodating 
long-term sentences.
    In February 2004, when I became assistant secretary, I was 
briefed on Indian country detention programs and the ongoing 
challenges related to physical conditions and management 
structure. I want to thank Mr. Devaney and his office for 
bringing this to my attention. At this briefing, I immediately 
determined that critical improvements were needed, in addition 
to those that were already underway.
    Since February, we have taken immediate and proactive steps 
to identify the deficiencies at these detention centers and 
take appropriate action. I would just like to say that prior to 
my coming on board, my previous background was in the 
restaurant industry where we take the health, safety and 
welfare of our guests to be the highest priority. When I was 
made aware of this by Mr. Devaney, I took the same reaction, 
that this was a very important priority and I tackled that 
problem with a sense of urgency. In fact, within the first 24 
hours, I had gathered members of my staff and discussed a 
detailed plan of action that I wanted taken and expressed that 
the current conditions of the Bureau's detention facilities 
were totally unacceptable to me.
    Within the next 48 hours, we had assembled a task force to 
start working on this problem. By the end of the week, we had 
mobilized over 100 people to start our own investigation 
throughout Indian country, especially the Bureau facilities 
that we run, to take and do an investigation on what was 
actually taking place.
    I just want to highlight that. I cannot answer for what 
happened before, but upon my hearing about it, we did not waste 
one day; we acted immediately to start putting things in place.
    Even though it is not in my testimony, I would like to 
address the concerns that you have regarding Chemawa. Like Mr. 
Devaney, since it is under active investigation, I cannot 
comment specifically on it. But I want to share with you that 
when I had heard about this, we stopped that practice of 
holding children in detention cells. There are currently no 
detention cells in our school systems that are being used.
    In addition, we also implemented a safety procedure that if 
any of our children are inebriated, that we have totally 
changed how they are treated. They are immediately sent to a 
hospital and placed under a physicians' care until they can be 
released. When they are released, and brought back, they are 
under supervision. There are many things that we have 
implemented regarding the health and safety of our youth, so an 
incident like the one at Chemawa's should never happen again.
    Also, even though it is not in my testimony, one of the 
things that we did was to stop including juveniles adult 
facility. we have stopped that process immediately. There are 
no juveniles being held in adult facilities. It has caused some 
problems in the past, but we have put a stop to that practice.
    It is important to get across we have not treated this as 
business as usual. We have taken this to be a high priority and 
have treated it with a sense of urgency and immediacy.
    Thirty-nine of the Bureau-owned detention centers were 
inspected for operational health and safety concerns by March 
10, 2004. The 20 worst detention centers that are owned by the 
Bureau were also inspected for structural, plumbing, electrical 
and environmental concerns by March 10, 2004. The remaining 19 
were inspected for structural, plumbing, electrical and 
environmental concerns by June 1, 2004.
    Inspections were completed in compliance with BIA handbooks 
that are based upon national standards such as the American 
Correctional Association standards, uniform building codes, 
national fire life safety codes, and all pertinent 
environmental standards. Thirty-nine Bureau-owned detention 
centers were inspected to determine necessary repairs, whether 
minor or major. All needed repairs were entered into the 
Bureau's facility and management computer information system 
for tracking of project completion and full financial 
accountability.
    I would like to further comment that our staff put in a 
very herculean effort to put this report together so that I 
would have correct and full information; so that I knew what I 
was dealing with. I would like to acknowledge the work done our 
staff on that.
    The Chairman. Can we have that report? I do not think we 
have a copy of that report. Could you provide that so we can 
include that in our record?
    Mr. Anderson. Yes.
    The Chairman. Thank you.
    Mr. Anderson. This year, in 2004, we have dedicated a total 
of $6.4 million to address normal annual facilities operations, 
as well as facilities safety and environmental deficiency 
concerns. Prior to that, the budget was $1.4 million. Within 
the first several weeks, we had identified another $2 million, 
and since then we have raised that to a total of $6.4 million. 
I think it shows that we have reacted swiftly to take care of 
the things that we could do immediately.
    About 84 percent of this funding has already been 
distributed to the detention centers for completion of 
identified repairs and normal annual operating expenses. In 
addition, about 45 percent of these immediate repairs have been 
completed since we started this.
    The Office of Facilities Management and Construction and 
the Office of Law Enforcement Services have already begun 
corrective actions to reduce threats of harm to life and 
property. These actions include, number one, closing unsafe 
facilities, revising procedures for reporting and reviewing 
serious accidents, which was one of the concerns of Mr. 
Devaney's office, the reporting. I would also like to recognize 
Mr. Walt Lamar who is our Acting Director for Law Enforcement. 
He is here with me. If necessary, he is willing to help answer 
questions.
    I would like to say that he has done a terrific job. He has 
set up a war room in the Department of the Interior, bringing 
in his best officers. They have been working night and day. 
They have worked through weekends and even this past weekend, 
missing Father's Day, to work on restructuring our reporting 
procedures.
    A lot has happened, and I want to say that much of this has 
happened even before it was brought up in the newspapers. I 
want to assure the committee that this was not something that 
just happened because there was something in the newspapers; 
these officers have done a remarkable job considering the 
constraints that they are under. We have good police officers 
and I know they are. I would like to recognize that before this 
committee.
    [Prepared statement of Mr. Anderson appears in appendix.]
    The Chairman. I am pleased to see that the Department of 
the Interior and the Bureau takes the issue so seriously, and 
that you have provided some very strong leadership in trying to 
correct it.
    Let me ask you a couple of things. I think there is a 
movement, or maybe not a movement, but certainly some 
discussion about whether it would be wiser to try to establish 
regional correctional facilities, rather than having every 
tribe have one. What would your view be on that?
    Mr. Anderson. I think that is something we are considering. 
We are looking at being able to maximize the resources that we 
do have. It is something that is being looked at.
    The Chairman. The second thing is that some tribes, as I 
understand, they have, for lack of a better term I guess, over-
capacity. They have more cells. They have more space than they 
need. They are renting those out to other tribes, which helps 
offset the cost of running the facility, too. Is that something 
the Bureau encourages?
    Mr. Anderson. I think that what we are doing is using 
whatever facilities are available. I think in some instances we 
have extra space. In other facilities, we find ourselves 
overcrowded. We have had to move prisoners to appropriate 
facilities.
    The Chairman. Have you initiated any special training or 
partnerships with other agencies to try to reduce the terrible 
suicide attempts in BIA jails?
    Mr. Anderson. Yes, sir; we have. We have recently met with 
the Department of Health and Human Services. We have also been 
working with Justice. I would like to say this, you know, the 
suicides that happen are not a product of detention centers.
    The Chairman. Yes; they come in with emotional problems or 
additions to drug or alcohol or something, and that is 
contributing.
    Mr. Anderson. This is one of my concerns as assistant 
secretary. I have gone on record that we need to declare war on 
drugs, alcohol and gangs in Indian country. As you are aware, I 
have spent much of my time visiting tribes in the short time I 
have been on board, and have visited almost 40 schools 
throughout Indian country in talking to our Indian youth. I 
really believe that the high suicide, high alcoholism and 
substance abuse, the dropout rate and the unemployment in 
Indian country are not a result of Federal interference, but it 
are really a result of young people growing up without hope.
    We had an opportunity to talk the other day. One of my 
goals is to be able to work within our school systems to turn 
our schools into leadership academies, to start addressing the 
mental health of our children, being able to teach them success 
principles because I really believe that when our young people 
do not have hope in their future, that this is what causes the 
despair. I really believe that one of my roles and the reason 
why I was brought on board, because I think you could have 
found many other people that could have addressed some of the 
trust issues and other things like that, but I really believe 
that the message that I bring to Indian country is that as 
Indian people, we have a future; if we work together, we can 
achieve great things. That is the message that our children 
need to hear.
    The Chairman. I commend you for that attitude. It is sorely 
needed. Thank you.
    One other thing, the Department of Justice said in their 
testimony that there are roughly 500 unreported incidents. Is 
there any changes in detention staff being trained or something 
on how to report incidents in the Bureau's jails?
    Mr. Anderson. Yes, sir; there is. Again, as I stated 
earlier, we have treated this with an immediacy, a sense of 
urgency, to the point that we have a war room within the 
Department. It is something to see, we have taken every aspect 
of law enforcement and detention centers and we are addressing 
every single issue. We have 32 high-priority elements that we 
feel must be taken care of or we are going to continue to 
experience these same problems.
    One of our priorities is the reporting of suicides and 
attempted escapes. I will share with you that throughout law 
enforcement the Department and the Bureau know that this is of 
the utmost concern to me. It is something that I do not take 
lightly, and it is something that we have implemented as part 
of the job performance.
    The Chairman. Thank you. Again, thank you for your 
leadership on this issue.
    Senator Inouye, did you have questions of Secretary 
Anderson?
    Senator Inouye. Just a couple of questions.
    Mr. Secretary, I want to commend you for the proactive 
attitude you have adopted and for the work carried out by you 
and your team. I think it is safe to assume that these 
conditions existed before you took over. Was BIA notified of 
these conditions? Does the record show that they knew about it? 
Or did it suddenly become obvious?
    Mr. Anderson. I cannot answer what happened before me. I do 
know that it is being investigated by Mr. Devaney and his 
office. I will assure you that when I came on board, that not 1 
day went by before we took action on it. I believe that the 
health, safety, and welfare of our Indian people or those who 
are non-Indian who are within our jurisdiction are a very high 
priority and the issues raise by Mr. Devaney should be treated 
with the utmost of urgency.
    Senator Inouye. I have participated in many hearings, and 
this is one of the most depressing, obviously. If you had to 
select one facility or one tribe as having a good arrangement, 
can you pick one so we can have a model prison? Is there such a 
thing? I would like to have something positive in the record. 
[Laughter.]
    Mr. Anderson. We have the Southern Ute who will be 
testifying. They are highly regarded for the work that they 
have done within their law enforcement and detention center.
    Senator Inouye. So this is a model that Indian country 
should look at?
    Mr. Anderson. Yes.
    Senator Inouye. Thank you, sir.
    The Chairman. Chairman Richards of the Southern Utes is 
here and he will be testifying. We will ask him some particular 
questions about that facility.
    Now we will move to Ms. Henke. If you could go ahead and 
proceed. The same thing, we will submit some questions for the 
record and please abbreviate.

 STATEMENT OF TRACY HENKE, PRINCIPAL DEPUTY ASSISTANT ATTORNEY 
                 GENERAL, DEPARTMENT OF JUSTICE

    Ms. Henke. Certainly. Due to time, I will abbreviate
    Mr. Chairman, Vice Chairman Inouye, my name is Tracy Henke 
and I do serve as the Deputy Associate Attorney General for the 
Department of Justice. I want to thank you for the opportunity 
to discuss the Department's limited role with tribal detention 
facilities.
    There are two groups of Indian offenders who may be in 
Federal custody. First, there are prisoners who have committed 
an offense under Federal law. Often, these offenses fall under 
18 USC Sections 1152 and 1153. Section 1153 is known as the 
Major Crimes Act and 1152 is the Indian Country Crimes Act. 
Offenders in this category are under the jurisdiction of the 
Bureau of Prisons and not in Indian tribal facilities.
    The second group of prisoners have committed offenses under 
tribal law. Indian prisoners in this group are under the 
jurisdiction of the tribe whose law has been violated. As part 
of their inherent sovereignty, Indian tribes have jurisdiction 
to prosecute all crimes committed under tribal law by Indians 
in Indian country. These prisoners are generally in facilities 
operated by the BIA or the tribal government.
    The Department of Justice's involvement with Indian country 
detention facilities is generally limited to our correctional 
facilities on tribal lands program. This program provides funds 
to American Indian and Alaska Native tribes to construct 
correctional facilities on tribal lands for the incarceration 
of offenders subject to tribal jurisdiction.
    Specifically, the Department of Justice has administered 
tribal correctional facility grants. It is important to 
understand that these grants are statutorily limited to brick 
and mortar construction costs only. Grantees are responsible 
for fully supporting, operating and maintaining these 
correctional facilities.
    Since the inception of funding of the program, the 
Department of Justice has provided funding to 23 tribes for 
jail construction. Of these 23 facilities, 8 facilities are 
exclusively juvenile, 12 are combined adult-juvenile; and 3 are 
exclusively adult. All 23 tribes are actively implementing 
design or construction initiatives. Some have added beds to 
existing facilities, but most involve new construction. 
Proposed facilities range in size from 8 to 68 beds.
    In addition to the correctional facilities on tribal lands 
program, the Department's Bureau of Justice Statistics compiles 
statistics relating to detention facilities in Indian country. 
In November 2003, the BJS published Jails in Indian country 
2002, the most recent survey of adult and juvenile detention 
centers in Indian country. Data for this bulletin was obtained 
by mailed questionnaires, accompanied by phone calls and faxes. 
In total, 68 of the facilities in Indian country responded. For 
the committee's review, copies of the bulletin, as well as the 
questionnaire, have been provided to the committee.
    It is important to note that while the Bureau of Justice 
Statistics Bulletin contains statistical information about the 
Indian detention facilities, it does not gather information 
regarding conditions in jails. As the Administration, through 
the BIA, works to improve Indian detention facilities, the 
Department of Justice will continue to assist as we are able. 
Most recently, as pointed out, an experienced administrator 
from the Department's Bureau of Prisons, has been detailed to 
the BIA to assist in the development of strategies to improve 
the delivery of detention services in Indian country. The 
Department of Justice looks forward to this opportunity to work 
with the Department of the Interior to address this issue.
    Mr. Chairman, this Administration, specifically Attorney 
General John Ashcroft, has pledged to honor our Federal trust 
responsibility and to work with sovereign Indian nations on a 
government-to-government basis. The Attorney General and the 
entire Justice Department will honor this commitment and 
continue to assist tribal justice systems in their effort to 
promote safe communities.
    As you have pointed out, Mr. Chairman, often the most 
effective solutions to address the problems facing Indians and 
the tribes come from the tribes themselves. Our role is to help 
them to develop and implement their own law enforcement 
detention and criminal justice strategies.
    This concludes my statement. I am happy to answer any 
questions that you might have.
    [Prepared statement of Ms. Henke appears in appendix.]
    The Chairman. Thank you. Just a couple of quick questions.
    You mentioned the funding that the DOJ has provided. How is 
that funding distributed? Does it go through the Bureau?
    Ms. Henke. Actually, sir, the funding that has been 
provided, Congress has specifically directed the Department on 
where those funds are to go.
    The Chairman. Okay. Is there a formula for that, based on 
the number of enrolled people in the tribe?
    Ms. Henke. It is done through congressional earmarks 
through the appropriations process.
    The Chairman. I see.
    Also, you stated that an experienced administrator was 
assigned to help the Bureau develop strategies to improve 
detention facilities services. How long has that person been in 
that position? Have you measured any progress in that period of 
time?
    Ms. Henke. He has only been there about two weeks.
    The Chairman. Okay.
    Senator Inouye, do you have further questions?
    Senator Inouye. Ms. Henke, if I may ask, for fiscal year 
2000 until 2002, the Justice Department devoted about $35 
million in funding to tribal detention facilities. Then in 
fiscal year 2003, it went down to $5 million and then in 2004, 
to $2 million. Can you explain why?
    Ms. Henke. There are a couple of reasons, sir. As pointed 
out by the Chairman earlier, not all the facilities were 
operating at capacity. On average, according to the Bureau of 
Justice Statistics report, during the month of June 2002, the 
average capacity was approximately 79 percent. In addition to 
that, the Administration believes that we have to identify, 
because the Department of Justice grant program is only for 
construction, not for operation and maintenance et cetera, 
funds for those activities have to be identified.
    Finally, sir, Congress has not provided the Department of 
Justice any discretion in working with the BIA on how to 
allocate those resources. Congress has specifically directed. 
There has been no disagreement in the past between the BIA and 
the Department of Justice on where those resources should go. 
We just have not been given the discretion to allocate those 
accordingly.
    So in making some tough budget decisions, the Department 
currently has not requested additional new construction costs.
    Senator Inouye. So you are suggesting that the sudden drop 
in funding was a congressional decision?
    Ms. Henke. Well, Congress has appropriated the dollars and 
has specifically earmarked where those funds should go.
    Senator Inouye. Did Justice request more funds?
    Ms. Henke. The Department of Justice, the Administration, 
has not requested additional funds for new construction. We 
believe funds need to be identified to address the current 
situation facing the current facilities, and those issues are 
maintenance and operation, before we request funds for new 
construction.
    Senator Inouye. Thank you very much.
    Ms. Henke. You are welcome.
    The Chairman. One follow-up, Ms. Henke. You mentioned that 
sometimes the construction is based on earmarks from the Hill 
here that does not go through some formula. Would you support 
eliminating that current system and going to some kind of a 
need-based program that is determined by the Administration?
    Ms. Henke. The Administration has stated on numerous 
occasions that they do not support the earmarks through the 
appropriations process in general. So we would support having 
the ability to have a needs-based or additional formula-based 
process to distribute those funds.
    The Chairman. Okay. I thank both of you for appearing here 
today. As with our first panel, if you have any recommendations 
how we might get involved to make things a little better, we 
would certainly appreciate it.
    Mr. Anderson. Thank you.
    Ms. Henke. Thank you.
    The Chairman. Thank you, Dave, and if you have the time you 
might want to stay and hear our last panel, or at least some of 
our last panel, I think their testimony is very important.
    We have Howard Richards, the chairman of the Southern Ute 
Tribe; Vivian Juan-Saunders, chairperson of Tohono O'odham 
Tribe from Arizona; and Hope MacDonald-Lonetree, chairperson of 
the Navajo Council Public Safety Committee; Darrell Martin, 
president of Fort Belknap Indian Community Council; and Fred 
Guardipee, council member for the Blackfeet Tribe of Montana.
    We will go ahead and proceed with Chairman Richards, my 
friend and colleague and neighbor from Southern Ute. They have 
a facility at Southern Ute that I think very frankly could be a 
model for the tribal jails and courts that could be used 
nationwide. If any of you have an opportunity to visit that, 
you should get a hold of Chairman Richards.
    Go ahead and start, Howard.

 STATEMENT OF HOWARD D. RICHARDS, Sr., CHAIRMAN, SOUTHERN UTE 
                             TRIBE

    Mr. Richards. Mr. Chairman, Mr. Vice Chairman, members of 
the committee, thank you for allowing the Southern Ute Tribe to 
provide testimony on an age-old issue that has been around 
since the Government detention facilities.
    I am the chairman of the Southern Ute Indian Tribe from 
Ignacio, Colorado. I am not out here to magnify or illustrate 
what has already been said to this point. We all understand 
that there is a problem in Indian country in the field of 
detention facilities, a problem that has existed when I first 
became a tribal police officer in 1979. I experienced the 
horrors of a government-run detention facility up until my 
departure from the tribal police department in 1991, when I was 
then elected to the tribal council. So in short, been there, 
done that, and seen everything that the issue brings forward 
today.
    I would just like to offer recommendations based upon what 
Southern Ute has experienced. They are five recommendations 
that I bring to this committee. Recommendation number one is 
that Congress must allocate enough money to build and maintain 
facilities that are secure and legally sufficient. Having said 
that, the tribe itself funded construction of the new facility 
in 1999. Given what was happening in Indian country specific to 
Southern Ute, we had enough of the government. We had enough of 
the BIA-run program.
    The tribe actually funded the total project cost in excess 
of $9 million to build the corrections facility at Southern 
Ute. Why did we do that? We felt that we would have better 
control of the facility outside of 638 contracting with regard 
to detention, without the BIA regulations hindering the tribe. 
The other reason why we chose to go it alone is that the 
Southern Ute Tribal Council looked at rehabilitation of inmates 
versus warehousing of inmates as you see today.
    The tribe subsidizes the operation and costs by 
intergovernmental agreements. Today, we have 18 IGA's with 17 
tribes, many of the Pueblo Tribes of New Mexico. We have one 
presently with a tribe from California. We have two other IGAs 
with the Federal Government, that being the Immigration and 
Naturalization Service and the Federal Marshall's program.
    Point number two is to allow tribes more flexibility for 
involvement in management of Federally funded tribal detention 
centers. The flexibility that I am talking about is 
rehabilitation that our program, our tribal detention center 
has 13 proactive programs. You will find in my testimony that I 
submitted, with rehabilitation in mind, that the Southern Ute 
Tribal Council wanted the inmates, once they were released from 
our detention center to be productive members of the society, 
as well as productive members of the Southern Ute Indian Tribe.
    Point number three is the need to separate detention from 
police functions which is very critical, very important. You 
will hear testimony to that. At the Southern Ute Indian Tribe, 
detention has been separated. It has a separate administration 
and budget. The reason for that is that when we looked at the 
Federal funding on the government side, that Federal money for 
law enforcement programs usually means detention. Funding takes 
a back seat to other spending. We lived with that for many 
years, so the attitude in changing to a tribal control where we 
would run our own programs and separate that from the police 
action.
    Point number four is to hire detention professionals to 
manage detention centers. That is what the Southern Ute Tribe 
did in 1999, with the separation of detention from tribal 
police for many reasons. When you hire professionals that deal 
only with detention, you have a better control of the inmates. 
When you combine police and detention facilities, the majority 
of the times, nine out of ten or ten out of ten, you will have 
tribal police officers acting as detention officers at that 
point, which can be viewed by police officers as punishment for 
whatever, or to be utilized as a training grounds. They also 
would dispatch for law enforcement in addition to supervising 
inmates.
    Point number five, for detention, the need to have good 
operating policies and procedures in place are very critical, 
as found at Southern Ute. Our principal policies are reviewed 
on an annual basis. We have adopted the American correctional 
standard as far as detention facilities at Southern Ute.
    In conclusion, Mr. Chairman, Mr. Vice Chairman, we realize 
that few tribes can afford to build and operate their own 
detention center without any Federal funding, as we have done. 
We hope however that our experience and our recommendations 
might give you some ideas on how to improve conditions in 
Indian tribal corrections facilities.
    I want to thank you for inviting me to testify before this 
committee. On behalf of the people of the Southern Ute Indian 
Tribe, thank you very much.
    [Prepared statement of Mr. Richards appears in appendix.]
    The Chairman. Thank you, Chairman Richards.
    We are going to run out of time before we get to ask 
everyone questions. So before going to Vivian Juan-Saunders, 
let me ask you a couple of things, and Senator Inouye may, too, 
before we have to run to vote.
    The Southern Utes, a very progressive tribe, have an 
alcohol recovery program called Peaceful Spirit. Does that work 
in conjunction with the tribe on what you call rehabilitation 
of people that are in the jail?
    Mr. Richards. That is correct. The inmates have an option 
of moving into and taking treatment at the Peaceful Spirit 
Center, but also we provide AA-type rehabilitation while they 
are incarcerated in the jail itself, in the detention facility.
    The Chairman. In that program, you use the modern systems 
of rehabilitation, which is counseling. But also I noticed that 
they also have sweat lodges and things that try and use the 
traditional and religious way of recovery, too. Is that 
correct?
    Mr. Richards. That is correct, Mr. Chairman. The Southern 
Ute Tribal Council felt that because of the process that we 
were experiencing, that there was no spiritual or traditional 
healing within the justice system. So therefore we chose to run 
our own detention center that would allow traditional and 
cultural healing within our people.
    The Chairman. Good.
    Senator Inouye, did you have any questions of Chairman 
Richards before we move on? I guess we have kind of run out of 
time. Okay, then let's go ahead. Vivian Juan-Saunders, if you 
would proceed.

 STATEMENT OF VIVIAN JUAN-SAUNDERS, CHAIRWOMAN, TOHONO O'ODHAM 
                             NATION

    Ms. Juan-Saunders. Good morning. Thank you for the 
opportunity to testify. My name is Vivian Juan-Saunders, 
chairwoman of the Tohono O'odham Nation in Southern Arizona.
    The BIA built our detention facility in 1961. It was built 
to hold a capacity of 34 inmates. The BIA owns the facility and 
through 638 contracting the Nation operates the facility. For 
many years, the detention facility on our Nation has had the 
unfortunate distinction of being one of the most overcrowded 
jails in Indian country. Our average daily population ranges 
from 110 to 115. This has resulted in a 300 to 350 percent 
overcapacity rate.
    In 1987, the BIA renovated the facility. However, it did 
not address the overcapacity issues. It costs approximately 
$3.4 million per year to operate this facility. The BIA 
provides only one-third of the funding. The Tohono O'odham 
Nation uses our own tribal funds to pay for two-thirds of the 
operations, or approximately $2.3 million. Our juvenile 
corrections program is separate from the adult facility and is 
operated by our tribal court system. Once again, the tribe pays 
for the juvenile program with no support from the BIA.
    Our adult detention facility has a staff of 40 people. In 
our testimony you have a listing of the positions. However, 
five of the positions are frozen due to funding limitations. 
From our own experience, we know that proper and ongoing 
training is essential to effective jail management. Through our 
own efforts, without any direction from BIA, we have 
established policies and procedures that are in accordance with 
standard corrections operations. We have ongoing staff 
development and training practices. We implemented a 
classification system that assesses an inmate's psychological 
background, reviews past offenses, and evaluates the prevalence 
of mental illness and other relevant factors to establish the 
appropriate placement and treatment of the inmate.
    The corrections staff attends the Indian Police Academy for 
basic corrections training and participates in a structured in-
service field training program. We continue to operate with a 
philosophy to respect inmates. However, oftentimes because of 
our shortfalls with staffing, we do fall by the wayside. 
However, that is our common philosophy.
    We have many programs funded by the tribe, volunteers who 
come into the facility to provide help, prevention, addictions, 
religion, traditional services and contact visitations. One of 
the concerns that I am hearing from our tribal behavioral staff 
is they are trained to address alcohol and drug addictions, and 
not mental health issues. So they are concerned going into the 
detention facility about their own safety because of the lack 
of training, but increase in mental health issues of inmates 
coming in.
    A recent report issued by the Inspector General in the 
Department of the Interior gave our adult detention facility a 
fair rating. While we are stretching our resources as far as 
possible, the facility continues to suffer from extreme 
overcapacity and need for basic capital improvements, such as 
upgrading the ventilation system, fixing showers, and replacing 
old backup generators.
    In the wake of the USA Today articles, we were informed by 
local BIA officials that additional resources have been 
identified to address deficient jail conditions. However, we 
have not been provided specific information regarding what 
additional resources or funding will be available.
    I am happy to report that we are in the design stage for a 
new facility in tended to house minimum security inmates that 
will be constructed with funding from the Department of 
Justice, a total of $6.7 million. Our timeline for operations 
is September 2005. The facility will be designed for 52 beds 
for both adults and juveniles. This will solve part of the 
problem. However, we still do need a maximum security facility 
to address violent criminals, sexual offenders, and gang 
members whose activities are increasing on our reservation.
    Another related problem that must be addressed is the lack 
of prosecution by the Arizona U.S. District Attorney for 
serious felony-level offenses. For example, we have had people 
in custody for murder who after the maximum tribal sentence, 
walked free with no Federal prosecution. We believe that 
additional Federal resources must be provided to address this 
serious problem. A specialized Indian country crime unit should 
be created in the Arizona U.S. District Attorney's office with 
Federal law enforcement personnel assigned to work exclusively 
with tribal police and prosecutors. Without appropriately 
prosecuting violent crimes in Indian country, the crime rates 
will continue to rise and repeat offenders will continue to go 
unpunished.
    A model is the FBI Safe Trails Program, where the Tohono 
O'odham Nation has access to five FBI agents to assist our 
tribal police with homicides, crimes against children, gang-
related violence and serious aggravated crimes. So there is a 
model out there through the FBI.
    Also within the Department of Justice, sufficient funding 
for tribal detention facilities must be included in its annual 
budget. Within the BIA, sufficient funds must be budgeted for 
facility operations. Both of these Federal agencies must 
consult with tribal governments and undertake a strategic and 
comprehensive planning effort to implement reform of tribal 
corrections facilities. The BIA should create a separate line 
item for corrections programs which includes adequate funding 
for staffing, equipment and operation and maintenance of 
facilities.
    Along these lines, proper respect and recognition must be 
accorded to the corrections profession. This means we must 
provide competitive wages, professional development 
opportunities, and training incentives to attract and retain 
qualified individuals.
    In conclusion, the appalling condition of jails in Indian 
country have been ignored for too long. Sometimes it takes an 
unfortunate tragedy to bring attention to these needs. We have 
not reached that level on the Tohono O'odham Nation, but based 
on our experience, jails in Indian country need immediate 
attention.
    Thank you for the opportunity to testify today.
    [Prepared statement of Ms. Juan-Saunders appears in 
appendix.]
    The Chairman. Ms. Juan-Saunders, you were here last July 
and testified that your tribe annually spends about $2 million 
to $3 million on border patrol. We all know that border patrol 
is supposed to be a function of the Federal Government, the 
cost of it, but you are sort of stuck with it, being on the 
border where your tribe is.
    Is any of that money reimbursed by any of the agencies of 
the Federal Government, like the Bureau of Immigration and 
Customs Enforcement?
    Ms. Juan-Saunders. The total cost is $7 million and, no, we 
are not reimbursed.
    The Chairman. You do not get any reimbursement for that. 
Okay, thank you. We will have some further questions. We will 
move on to Ms. MacDonald-Lonetree please.

   STATEMENT OF HOPE MacDONALD-LONETREE, CHAIRPERSON, NAVAJO 
         COUNCIL PUBLIC SAFETY COMMITTEE, NAVAJO NATION

    Ms. MacDonald-Lonetree. Good morning, Mr. Chairman, Vice 
Chairman Inouye, members of the committee. Thank you for the 
opportunity to provide the Navajo Nation's statement on Indian 
tribal detention facilities.
    On behalf of the Navajo Nation, I want to thank you for 
your support and your funding of these facilities in Indian 
country. The Navajo people directly benefit from your concern 
and your support.
    For the record again, my name is Hope MacDonald-Lonetree. I 
am an elected Navajo leader and serve as the chairperson of the 
Public Safety Committee of the Navajo Nation Council.
    As the nation with the largest population and the largest 
Indian reservation, we have various unique geographic, 
demographic and intergovernmental features that require 
significant congressional awareness, leadership and budgetary 
considerations. Navajo does not have enough detention 
facilities, personnel and equipment. This leads to unsafe 
communities and a lack of economic opportunity. We need the 
resources to provide more detention facilities, personnel and 
equipment to make our communities secure.
    Navajo currently only has 103 jail bed spaces for a nation 
of more than 300,000 people. Detention facilities were built in 
the late 1950's and early 1960's, and they became so 
deteriorated that in 1992 the Navajo Nation court ordered all 
facilities closed as health hazards. The court and Federal 
inspectors told the tribe that the jail facilities were not fit 
for human occupants and not even safe for detention personnel.
    I have provided you with a page of major incidents and 
fatalities as a part of my written testimony.
    The Chairman. It will be included in the record.
    Ms. MacDonald-Lonetree. Thank you.
    After minor renovations, by consent decree the jails were 
reopened with limited bed space and that resulted in the 103-
beds now available. Those often close intermittently due to the 
environmental health inspections because of the unsafe nature 
of those old facilities.
    We have only three juvenile detention facilities and one of 
these has been recently closed due to a lack of funds to make 
those repairs. Despite this lack of jail bed space, we have 
over 33,000 arrests a year on our reservation.
    Members of the committee, I urge you to come and see for 
yourselves the deplorable condition of our detention 
facilities. But more than that, I hope that you will see for 
yourselves the need for immediate resources to ensure Navajo 
public safety. We need additional facilities, new facilities. 
We need increased law enforcement personnel. We need adequate 
and up-to-date equipment.
    Mr. Chairman, members of the committee, the tremendous rise 
in crime on the reservation is not due to the lack of resolve 
on the part of the Navajo Nation. It is not due to the lack of 
dedicated officers who are well-trained and committed. It is 
due to the lack of sufficient annual funds to address the need 
for detention facilities, more personnel and adequate 
equipment.
    The high crime rate is directly related to high 
unemployment and poverty. Very few companies want to come to an 
unsafe community. Therefore, economic opportunity and jobs for 
our nation are adversely affected by the lack of safe and 
secure communities.
    The U.S. Attorney's office of Flagstaff, Arizona estimates 
that violent crime on the Navajo reservation is six times 
higher than that of the national average. Increased crimes 
include alcohol and drug abuse, domestic violence and child 
sexual abuse. We cannot even address domestic violence on 
Navajo because we cannot even separate the abuser from the 
victim due to the lack of facilities, and the abusers know 
that.
    We cannot even protect our children from sexual predators. 
Just in one community, there were over 100 reported incidents 
of child sex abuse in 1 month. We cannot protect our families 
from somewhere to put the perpetrators threatening our 
communities. Navajo Nation averages one officer for every 4,000 
people, compared to the national average of three officers per 
1,000. Our officers perform alone without partners and without 
radio communication for backup. As you heard earlier from the 
Inspector General, we often only have one detention officer for 
a facility, and that is very dangerous for our officers.
    Let me share an incident that will enlighten you on some of 
the situations that we face on Navajo. An officer responded to 
a call and found a man beating his wife and family. The wife 
did not want him arrested. She knew that he would be detained 
for a few hours due to the lack of facilities, and feared that 
he would return more violent. Because she did not want him 
arrested, she attacked the officer herself and tried to get his 
gun. The officer managed to get away, leaving the abuser with 
his family. That is because the people know we have no jails.
    Another sad incident, and this is included in the written 
statement, a young boy was arrested for attacking his brother. 
After a short hour in jail, he was let out. A week later he was 
arrested for attacking his sibling again. He was again released 
after a short time in jail. The third time he was arrested was 
for stabbing his mother. This is because we cannot detain these 
individuals and we have no facilities.
    Criminal incidents and recidivism are high on the 
reservation, all due to the factors I have described. Criminals 
are allowed to return to their community without incarceration. 
We cannot incarcerate criminals without putting them at 
significant physical and health risk. In many instances, the 
tribal court is a revolving door for our criminals. Criminals 
and their victims have a complete disregard for our criminal 
justice system. Communities across the reservation and 
neighboring towns are at risk. Public safety officers are at 
risk.
    From all statistics and reports we are receiving, Navajo 
crime rates will continue to increase unless we address this 
problem now. We need sufficient funds to replace and build 
seven new facilities. These facilities must include sufficient 
personnel and equipment to manage a growing epidemic of 
criminal activities on the reservation.
    Yes; we need your help now. Just to bring our detention 
facilities up to the national standard will require $140 
million from Navajo. This is just to cover the basic need for 
facilities. This does not even include services that can be 
provided in the jails.
    Members of this distinguished Committee on Indian Affairs 
and the U.S. Senate, I urge you to help us correct years of 
neglect and underfunding and help us to secure our communities. 
I have provided you with a written statements and 
recommendations on behalf of Navajo and I am available for any 
questions.
    Thank you.
    [Prepared statement of Ms. MacDonald-Lonetree appears in 
appendix.]
    The Chairman. Thank you.
    Did I hear the numbers right? To me, they were just 
absolutely astounding, but 33,000 arrests per year?
    Ms. MacDonald-Lonetree. Yes.
    The Chairman. And you only have 103 beds?
    Ms. MacDonald-Lonetree. At the maximum, and like I said, 
some of them close off and on, so we can sometimes have 50 to 
70 beds available.
    The Chairman. I see.
    So with that kind of arrest rate and that few places to put 
them, you mentioned the word ``revolving door.'' It must be a 
revolving door in the police departments when they are 
arrested, too. They keep them for a while and then just turn 
them back out. Is that what happens?
    Ms. MacDonald-Lonetree. That is correct. And also, in the 
attachment that I gave you, inmates are often held in back of 
the police cars or panels for hours because there is no place 
for them.
    The Chairman. Because there is no place for them. So if 
they get arrested, sometimes is it correct to assume that they 
get turned right back out on the street before they even come 
to trial?
    Ms. MacDonald-Lonetree. That is true, because the officers, 
as a matter of fact, on Navajo say they are very frustrated. 
Before the ink dries on the report, the person they arrested is 
out.
    The Chairman. So then that leads to the question you 
probably have a repeat offender program for a repeat offender 
problem of people that are being arrested for the same thing 
over and over. You mentioned the young man that beat his 
brother up and then ended up stabbing his mother.
    Ms. MacDonald-Lonetree. Absolutely. That is what also 
causes the violent crime, because they know there is no law and 
order on Navajo.
    The Chairman. Senator Inouye.
    Senator Inouye. I have just one question. I realize that on 
a matter of this magnitude, you cannot point fingers and say 
the Administration is at fault or the Congress is at fault or 
Indian country. I think all of us have our share of fault. But 
I am looking over your prepared statement and it says the 
following: ``In February 2002, DOI estimated that the deferred 
maintenance backlog was between $8.1 billion and $11.4 
billion.'' I have been on this committee now for nearly 30 
years and I have been chairman at times or vice chairman. But I 
must confess that I have never heard figures of this magnitude. 
There is some disconnect in the information. But I thank you 
very much for your testimony.
    Ms. MacDonald-Lonetree. Thank you.
    The Chairman. Thank you.
    Now we will proceed with President Martin.

  STATEMENT OF DARRELL MARTIN, PRESIDENT, FORT BELKNAP INDIAN 
                       COMMUNITY COUNCIL

    Mr. Martin. Thank you, Mr. Chairman, Mr. Vice Chairman, 
members of the committee. I want to thank you for giving me the 
opportunity to testify on this important issue.
    I speak on behalf of the Gros Ventre and Assiniboine Tribes 
of Fort Belknap. I serve as the president on the tribal 
council. Fort Belknap is located in north-central Montana, 
about 200 miles north of Billings, which is the largest city in 
Montana.
    The tribal headquarters is also 350 miles from Great Falls, 
which is the only city that has a certified juvenile detention 
facility. Adult detention facilities at Fort Belknap is a 
single jail providing adult detention facilities for over 5,000 
enrolled members. We only have eight beds in that one facility. 
The jails are reviewed and deemed defunct and can no longer be 
housing inmates for no longer than 72 hours.
    Inmates in need of transport will have to be transported 
for 1 hour because we have no room to house them in our own 
facility, or they will be shipped to Fort Peck Reservation that 
is at least a 3-hour drive from Fort Belknap. We asked for 
reconstruction money and did not receive any money to 
reconstruct this deplorable situation on Fort Belknap. In 35 
years, we have only renovated the current facility.
    The cost of transportation has been significant. It has 
often required overtime by our police officers to shuttle 
prisoners back and forth on drives that are often 6 hours round 
trip in good weather. In winters, with long and often bitter 
cold, and poor weather trips, can delay a trip up to 10 hours 
for a round trip to transport a prisoner or a juvenile to Great 
Falls.
    The families of detainees that have to visit their families 
to Great Falls or Billings have to travel long distances in 
cold weather. They have no money to travel these long distances 
to visit their families that are incarcerated, because we have 
no facility in Fort Belknap to house them.
    Juvenile detention facilities, we have never had a juvenile 
detention facility on our reservation. For several years, we 
have contracted for placement in Blaine County youth detention 
facility about 25 miles away. However, this facility will close 
shortly. It does not meet State standards. It has not provided 
counseling or treatment for the youth detention. I want to put 
on the record, too, there is no mental health help for these 
individuals as well.
    Limited funding has exhausted the youth, and they have to 
be detained on Fort Belknap in the same environment as adults. 
There is limited funding for counseling and treatment for youth 
and their families. Many families simply do not have the 
resources to travel to Great Falls and visit their children.
    For nearly 6 months of the year, traveling such distances 
is simply dangerous because of the cold weather and difficult 
roads. We need a solution at Fort Belknap to detain youth 
locally, provide timely return to the youth to make a 
difference in their lives; to encourage them to go on.
    I want to thank the committee for listening to our 
testimony today. We ask the committee to please help provide 
funding for jail and detention facilities. I want to thank the 
committee. Thank you.
    [Prepared statement of Mr. Martin appears in appendix.]
    The Chairman. Thank you for your testimony. In listening to 
all of your testimony, I just mentioned to staff, my gosh, the 
numbers sound like something you would find in Iraq, not the 
United States. They are just deplorable.
    Go ahead, our last person who will testify is Fred 
Guardipee.

   STATEMENT OF FRED GUARDIPEE, COUNCIL MEMBER, CHAIRMAN OF 
             HEALTH, EDUCATION AND SOCIAL SERVICES
          COMMITTEE, BLACKFEET TRIBAL BUSINESS COUNCIL

    Mr. Guardipee. Good morning, Mr. Chairman. I want to thank 
the Chairman, Vice Chairman and members of the committee. My 
name is Fred Guardipee. I am a member of the Blackfeet Tribal 
Business Council for the Blackfeet Tribe in Browning, MT. We 
are in the northwestern part of the State. I am also the 
chairman of the Blackfeet Tribal Council Business Law and Order 
Committee.
    I want to talk about the detention facilities on the 
Blackfeet Nation. Our reservation jail was built back in 1970, 
as were most of the facilities we were discussing this morning. 
It was built to hold 35 prisoners. At the time I was working 
there as a law enforcement officer, it was probably one of the 
most modern facilities in that area.
    However, today that facility has deteriorated. In 1995, the 
Blackfeet Nation was operating the facility. It was then under 
a 638-contract that the BIA took over the operations of that 
facility. Then the tribe operated it in conjunction with the 
Bureau under a 638-contract until 2002, on a resumption of the 
BIA law enforcement services.
    However, that facility now, it has become a problem. It is 
unsanitary. There is no ventilation. The heating system does 
not work, the showers. It was made to hold 35 prisoners, but as 
many as 250 prisoners have been held in there at one time. They 
are sleeping on floors. They have very little bathroom 
facilities. Consequently, they are urinating and defecating on 
the floors. When you enter the facility, that smell stays with 
you. It stays with your clothing when you leave. I worked in 
that building for a number of years.
    The plumbing system is inadequate. It does not work. We 
have had shut downs of our water. Our water system that is used 
to provide drinking water is not drinkable. It is very bad. We 
have had to utilize the bottled water system for years, for our 
prisoners.
    On the Blackfeet Nation, we have around 15,000 tribal 
members enrolled. We have about 10,000 living on the 
reservation. We are bordered on the north by the Canadian 
border and on the west by Glacier National Park. Those 10,000 
members are there year-round residents. However, during the 
summer months that population increases to over 2 million 
people passing through our Blackfeet Nation.
    We hold tribal, State and Federal prisoners, from murderers 
to vagrants in our facility. Yet it is not adequate. It is not 
safe. There is a danger to our staff. Our staff have been 
assaulted and seriously injured in this facility over the 
years.
    The suicide rate, the attempt rate, it is almost one 
attempt daily, and we have had over the past 5 years at least 
five successful suicides or deaths in our facility.
    We have brought this to the attention of the BIA. I have 
myself personally on many occasions, the conditions of this 
facility, asking for renovations. They do bring paint. In a 
couple of instances, we painted the place and found out the 
paint was not suitable. It was contaminated and we ha to scrape 
the whole thing back out and start over again.
    The ventilation system is so bad that there is no fresh air 
coming into the facility in the summertime. There was no 
control over the heat. The heat runs consistently. The furnace 
is full blast. There is no cool air coming in there.
    So if it is 90 degrees outside, it is probably 110 degrees 
inside those facilities. These inmates are being held from 6 
hours to one year in that facility, due to the nature of the 
crimes. We have every major crime on our reservation, 
unfortunately. With the drugs, the meth operations, we have 
ongoing operations on the Blackfeet Nation.
    We also have the manufacturing of drugs, and drugs being 
transported from the Canadian side, passing through unprotected 
border stations that are not patrolled by the Border Patrol or 
anyone else. We have about five entrances from Canada, where 
they are unprotected. The Canadian individuals have keys to the 
gates. They enter our Nation without any supervision at all. 
They just come through, open the gate and go, and lock it back 
up and come into our Nation, into the United States, and they 
are not asked by anyone or stopped by any Federal agency to 
check whatever they are bringing in.
    Just recently, we had what we call the mad cow. We had 
livestock entering our Nation through those unprotected border 
stations. We have chemicals that are banned in the United 
States that are being brought down through our Nation on these 
unprotected stations on our border.
    But yet we receive no homeland security funding, or very 
minimal. We have asked for additional patrol officers. We have 
asked the Border Patrol, the Customs to increase their patrols. 
Officers were sent into our area, but they are not specifically 
working the Blackfeet Nation. We have about 80 miles of border 
there with Canada that is unprotected.
    On the west, we have the Glacier National Park. We have 
three entrances for tourists and other folks. Employees enter, 
and a lot of things are brought into our Nation, drugs and 
individuals that are hiding from law enforcement are found in 
our Nation, in our forests. Several of these people have been 
caught hiding out in our forests up there.
    Over the years, this facility has been very underfunded. We 
have asked many times to beef up the staff, the Blackfeet 
Tribe. We have about a $5-million budget that we are called 
upon to serve the Blackfeet Nation of almost 10,000 people that 
live there. We were operating under 638 contracts that when 
they were originally written were for about $4.5 million, but 
were never funded beyond $1.2 million for law enforcement 
services for the Blackfeet Nation.
    Presently, the Bureau took over operations, an emergency 
reassumption in 2000. The conditions have not changed. The law 
enforcement services are still inadequate. We have seven 
communities that are not being served by law enforcement. We 
are now in a process, and have been for a while, to augment 
those law enforcement officers with tribal officers funded 
under the COPS program.
    However, that funding is now reaching the stage where those 
funds are running out, and there is no money available for the 
Indian nation, the Blackfeet Nation in particular, to hire 
these officers who we hired over the years that were trained by 
us or trained at the Indian Police Academy. We need additional 
dollars.
    Our recommendation is that the committee take a serious 
look at what is going on in our Indian Nations. We had Mr. 
Anderson come out to Montana. However, he only visited two 
reservations. We would like to have seen him visit the rest of 
the Indian Nations. There are seven reservations in the State 
of Montana. Only two were visited. I think he needs to look at 
all of them.
    I do not know if you have seen the movie that was done by a 
former BIA officer. That movie clearly illustrates the 
condition of the Blackfeet facility. I do not have that movie 
with me today, but I think it is available. We will make that 
available or leave it as part of our record that does show the 
condition of the Blackfeet facility.
    We are recommending funding for all Indian Nations, but in 
particular the Blackfeet Nation. To look at our facility right 
now, we are proposing, we have set aside land. We look at a 
facility that would cost around $45 million right now to 
combine our services. We have a little different philosophy 
than other nations in that we like to look at one-stop 
shopping. We want all of our facilities in one area, so our 
people do not have to run all over the villages to find this 
service or that service. They come to one place and all their 
needs are met, the courts, the social services, the detention 
facilities, adult and juvenile.
    We do want to thank the BIA. Over the past two years they 
have funded, limited funding on a juvenile facility. However, 
that facility was also built back in 1970 and is in bad need of 
renovations. The foundations are starting to crack. It is made 
to hold at least 24 children, and we have instituted a program 
there to look at rehabilitation. As a Nation, we have turned a 
ranch over to these children, to their supervisors, for the 
rehabilitation of those children. That seems to be working very 
well at this point. That facility also is in bad need of 
funding. It is going to need to be replaced here very soon.
    One of our goals was to improve that facility, to contract 
with other tribes who are in need of places to have their 
juveniles taken care of.
    Again, I just want to urge the committee to take a serious 
look at all the Indian Nations, but in particular the Blackfeet 
Nation in Montana, as well as our neighbor the Assiniboine, who 
is here testifying today. The great need is of replacement of 
facilities. I heard testimony earlier that they are looking at 
renovation and operations. To date, those have only been 
cosmetic. You throw paint down. You do not do anything with the 
basic infrastructure there. They need to be torn down and 
replaced. They are unsafe. They are unsanitary. They are 
inhumane to the people that have to be in those facilities for 
a long time.
    Thank you.
    The Chairman. Thank you, Mr. Guardipee.
    I have a couple of questions. I might mention, though, 
Secretary Anderson has stayed around to hear your testimony. I 
am sure this emphasizes the magnitude of the problems. With 240 
Alaskan villages and roughly 300 reservations nationwide, and 
him only being in office 6 months, give him a little time. He 
has been on the road almost constantly trying to visit 
reservations. I think he is doing his very best to do that.
    Let me ask, particularly since we have two tribes from 
Montana, I mentioned earlier the question of regional 
facilities. Would you think in Montana that that would work, to 
have a regional correctional facility in Montana so all the 
tribes could use it?
    Mr. Martin. I do not know if it will work because every 
tribe has their different ways of rehabilitation through 
spiritual or through medical. Plus, you have to put in the cost 
of transportation. Where is it going to be? The nearest 
McDonald's for us is 91 miles; or the nearest jail for our 
children is 150 miles. So every reservation, and there are 
seven reservations in Montana, where are you going to put it 
where one tribe can be equally driven. Then you are going to 
look at overtime for your police officers because there is not 
enough money for police officers, and there is a shortage of 
police officers.
    So I really do not think that would work. In my own 
opinion, just for the budgetary problems that each tribe has 
individually.
    The Chairman. Let me ask something else then. The Southern 
Utes have testified that they got tired of waiting for Federal 
funding and so they finally built a new facility with tax-
exempt bonding. Is that correct, Chairman Richards?
    Mr. Richards. That is correct.
    The Chairman. Have the other tribes, the Navajos or your 
tribe, thought of doing that?
    Mr. Guardipee. Yes; we are in the process of doing that, 
Mr. Chairman. We are exploring that, working with financial 
institutions within our area.
    On the first question you asked, Mr. Chairman, we have a 
little different philosophy in that we need to improve the 
facilities on Indian Nations themselves. I agree with Mr. 
Martin. However, there is a regional facility that is being 
discussed in the State of Montana for holding juveniles, rather 
than adults. We are looking at that proposal and it is being 
discussed by the Montana-Wyoming tribal leaders council, to 
look at maybe possibly three juvenile regional facilities, 
because there are none, basically, outside of Blackfeet, that 
these people can utilize. We discussed that about 1 month ago 
at our meeting in Billings, that we would like to look at that 
proposal for the juveniles.
    The Chairman. There is some kind of a facility in Sheridan, 
WY that a lot of Wyoming and Montana tribal members go to. I 
think it is a hospital, though. Is that just an alcohol 
recovery program or are there detention programs there, too?
    Mr. Guardipee. What I know, Mr. Chairman, is that it is an 
alcohol and drug recovery program at this point. They do not 
necessarily hold detention.
    The Chairman. Ms. MacDonald-Lonetree, what do you think 
about bonding as a mechanism for building facilities?
    Ms. MacDonald-Lonetree. The Navajo Nation has been 
exploring other options for our detention facilities. But one 
thing is paramount, and that is that our program, as Ms. Juan-
Saunders had mentioned earlier, is 638. We do have a 638-
contract. We have been severely underfunded through that 
contract to even maintain what we have.
    So as we look at options, one of them is a bond option that 
the Navajo Nation is exploring, and that has yet to even come 
before the full Navajo Nation Council for approval. But from 
the Division of Public Safety for Navajo, we are exploring 
other options for funding, but we would like to work with our 
trustee, the BIA, to find out how we might be able to get or 
reorganize some of the funding that they have there to meet our 
needs on Navajo. Thank you.
    The Chairman. Thank you.
    Senator Inouye, did you have further questions?
    Senator Inouye. All I can say is, once again this has been 
the most depressing hearing I have participated in. I can 
assure you that we will do our very best.
    My only regret is that our colleagues are not here. They 
should have heard this.
    The Chairman. I think so, too. The numbers you expressed 
are something, as one of the panelists mentioned, are like a 
third world country. It is hard to believe that those problems 
could actually exist in a country that can fly to the moon or 
provide miracle drugs worldwide for people who are in poor 
health, or things of that nature. It is just phenomenal 
numbers.
    But as with the other panels, I would request if you have 
some specific suggestions about what we might frame up. I 
understand that the lack of resources, that is, money, is 
always a problem and will probably continue to be, with a very 
fast birth rate in Indian country, but there might be something 
we can do that is concrete and advantageous to tribes. If you 
would maybe submit some suggestions to staff, I certainly would 
appreciate it.
    Thank you again. We will keep the record open for two weeks 
for any additional comments from our panelists or anybody in 
the audience, and we may submit some questions in writing to 
have you answer.
    Thank you. This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator from 
            Colorado, Chairman, Committee on Indian Affairs

    Good morning and welcome. This morning the committee is conducting 
an oversight hearing on ``Issues and Problems Related to Conditions of 
Tribal Detention Facilities''.
    Several weeks back this matter was splashed across the pages of 
major newspapers--such as USA Today--across the country. The articles 
discussed the ongoing Federal probe into tribal prison deaths that, as 
we now know, has revealed instances of inmate abuse, prison 
mismanagement, neglect, escapes, deaths, attempted suicides, inhumane 
conditions, overcrowding, as well as safety issues, staffing shortages, 
inmate access to weapons and poor prisoner monitoring and supervision.
    In fact, one story reported that the lack of prison monitoring 
resulted in the tragic death of a 16-year-old girl in Oregon.
    This situation is inexcusable and should not be happening.
    In April 2004, the Inspector General of the Department of the 
Interior issued an interim report on the dire conditions and operations 
of these facilities. In its report, the Inspector General discussed the 
many problems associated with these detention facilities and made four 
recommendations to be implemented immediately to prevent further life-
threatening situations.
    The Inspector General's report does not place the physical 
condition or operation of these facilities in a good light and 
justifies immediate action.
    In order to determine exactly what is happening and what we can do 
about it, this morning the committee will hear from witnesses from 
Federal agencies and Indian tribes to share their thoughts and 
experiences with us.
    I thank all the witnesses for appearing today and I look forward to 
hearing their testimony as well as any recommendations they may have to 
improve this situation.
                                 ______
                                 

 Prepared Statement of Hon. Tom Daschle, U.S. Senator from South Dakota

    Good morning, Mr. Chairman, Mr. Vice Chairman, and members of the 
committee. As many of you know, USA Today recently reported that 
Federal investigators have uncovered evidence of abuse, neglect, and 
inhumane conditions in Native American prisons and jails. This 
troubling report suggests that the conditions in Indian detention 
facilities are not improving, and, in fact, appear to be getting worse. 
It is my hope that this hearing will help to shed additional light on 
these allegations, and lead to solutions to improve conditions in 
facilities across Indian country.
    According to recent statistics, from the Department of Justice 
report on Indian jails and prisons, there are 70 detention facilities 
in Indian country, supervising approximately 2,100 inmates. Many of 
these facilities are in an appalling state of disrepair, and face 
problems that range from overcrowding and understaffing to sheer 
neglect and abuse.
    According to the most, recent statistics from the Department of 
Justice, over one-half of all detention facilities in Indian country 
were operating at 100-percent capacity in 2002, and 19 were operating 
at 150-percent or higher capacity. Of those 19, three are located in my 
State of South Dakota: Rosebud's Medicine Root Detention Center, 
operating at 250-percent capacity; Crow Creek's Fort Thompson Jail, 
operating at 242-percent capacity; and the Pine Ridge Correctional 
Facility, which is operating at a staggering 400 percent of its 
capacity.
    Inmates in South Dakota's BIA facilities are housed in dilapidated 
buildings and are forced to endure extraordinarily harsh conditions. 
Even though the Lower Brule-tribal detention facility was condemned by 
the BIA in 1987, it was still being used to house inmates as recently 
as 2 years ago. Because the new facility is still under construction, 
Lower Brule prisoners are sent 13 miles away, across the Missouri 
River, to the Crow Creek facility in Fort Thompson. Because there 
aren't enough BIA officers to transport them back to Lower Brule, 
detainees released from Crow Creek are often forced to make the return 
trip to Lower Brule on foot. It is shocking that this is allowed to 
happen in South Dakota, which routinely experiences harsh winters and 
sub zero temperatures. Moreover, the Fort Thompson facility is in 
equally bad shape. One person serves as both police dispatcher and 
detention officer in a facility that houses up to 30 prisoners.
    These conditions have a devastating impact on prisoners. 
Nationally, between July 1, 2001, and June 30, 2002, 282 inmates in 
tribal jails attempted suicide, up from 169 the previous year. In the 
last 5 years, the number of admissions rose 32 percent, and the annual 
number of attempted suicides more than doubled from 133 to 282. On Crow 
Creek, which encompasses most of one of the most impoverished counties 
in the United States and experiences inordinate suicide rates among its 
general population, several suicides have occurred in the local jail.
    Even more troubling, inadequate detention facilities pose a serious 
threat to the surrounding communities. With a limited number of 
officers responsible for large inmate populations, the risk of prisoner 
violence--against both prison staff and, in the event of an escape, 
local citizens is much greater. Moreover, the culture of neglect and 
abuse found in many of our Indian jails is indicative of broader trends 
within the communities. The Crow Creek jail doubles as a suicide watch 
center for troubled teens, since there is nowhere else in the community 
to take them. Several Emergency Medical Technicians [EMT's] and law 
enforcement personnel have either resigned, or are on the brink of 
resigning, due to the stress of the situation. Law enforcement 
officials are at a loss about how to address this disturbing pattern, 
and are overwhelmed by the feelings of hopelessness that accompany it.
    Clearly, the impact that overcrowding, dilapidated conditions, and 
neglect is having on inmates in these facilities, as well as local 
communities, is reaching a critical mass--both in South Dakota and 
across the Nation--and we must act now to reverse the trend. While 
addressing the problems that exist in jails and prisons clearly isn't 
the whole answer, such an approach will meet a critical need in Indian 
country, and will represent an important step toward increasing public 
safety and reducing incidences of abuse and neglect.
    We can start by increasing funding for BIA facilities. 
Unfortunately, this Administration has demonstrated a complete 
unwillingness to give Indian detention facilities the resources they 
need, and has actually reduced funding for jails and prisons in Indian 
country. It wasn't always so bad. Under the Clinton Administration, 
then-Attorney General Janet Reno created the Department of Justice-
Department of Interior Indian Law Enforcement initiative with the 
objective of creating an effective way to address law enforcement, 
facilities, juvenile justice, and rehabilitation efforts in Indian 
country. Although funding for these programs--which increased under the 
Clinton Administration and was consistent until the fiscal year 2002 
appropriations cycle--was not enough to meet all of Indian country's 
needs, the initiative represented an unprecedented step toward 
addressing some of these problems.
    Unfortunately, the current Administration, while budgeting hundreds 
of millions of dollars for Federal prison construction, has proposed 
eliminating the tribal facility program for the second year in a row. 
While Congress appropriated $35 million per year for construction of 
BIA detention facilities between 2000 and 2002, we appropriated only $2 
million in fiscal year 2004. Now, with an even tighter budget to work 
with, the outlook for this year is especially bleak, and conditions at 
BIA facilities are likely to get even worse.
    For too long, we have neglected our obligations to Native 
Americans. We are seeing the effects of that neglect in South Dakota. 
These are once again examples of the abrogation of the trust 
responsibility by the Federal Government to the tribes and its people.
    We need to do a better job funding Indian detention centers, and we 
need to do more to address public safety, tribal courts, and 
rehabilitation efforts. We cannot ask tribes to choose between funding 
crisis intervention and law enforcement. We cannot force tribes to make 
the choice between funding education and after-school programs for 
their children, and repairing cracked walls and inoperable surveillance 
cameras in their jails.
    While national rates are the lowest in years, crime on Indian lands 
continues to rise. Particularly disturbing is the violent nature of 
this crime; violence against women, juvenile and gang crime, and child 
abuse remain serious problems. The Bureau of Justice Statistics. 
reports that American Indians experience the highest crime 
victimization rates in the Nation--almost twice the national average.
    Mr. Chairman, the issues we are discussing today are of critical 
importance. If this were happening in any other part of the country, it 
would be met with public outrage and swift Government action. However, 
in Indian country, it is met with silence and reduced funding. For the 
safety of our Indian people and the well-being of their communities, we 
must take action.
    I look forward to working with this committee, and other relevant 
committees, to address these important issues.
                                 ______
                                 

Prepared Statement of Earl E. Devaney, Inspector General, Department of 
                      the Interior, Washington, DC

    Mr. Chairman and members of the committee, I want to thank you for 
the opportunity to address the committee this morning concerning the 
state of detention facilities in Indian country.
    In September 2003, my office began an assessment of Indian country 
detention facilities. I initiated this assessment following a 
conversation with the Chair of the Attorney General's Advisory 
Committee on Indian country, U.S. Attorney for the District of 
Minnesota, Thomas Heffelfinger, who had expressed his general concerns 
to me about the overcrowding and poor conditions of Indian country 
jails. I then discovered that these same concerns had been articulated 
for years by the Department of Justice in numerous reports. My office 
had also been receiving unofficial reports of appalling conditions at 
the detention facilities in Indian country. With all this information, 
I felt compelled to address these concerns immediately.
    We selected a team of seasoned investigators and auditors to visit 
a predetermined number of facilities and collect information about 
their management and operation. Our focus was on whether the funds 
designated for Indian country detention facilities were being properly 
expended and whether these facilities were safe and secure.
    I would like to point out that we began our assessment well before 
the confirmation of the present Assistant Secretary for Indian Affairs, 
and prior to any of the recent media disclosures of allegations made by 
a former BIA law enforcement official. While we have completed all our 
planned site visits, we have not finished our analysis of the funding 
issues or BIA's management of the Detention Program. However, given the 
committee's interest in this issue, I will gladly summarize our 
findings, thus far, and share with the committee the same concerns I 
shared with Secretary Norton in April of this year when I gave her an 
interim report on the deplorable conditions we were finding at some of 
these facilities. Thus, my report to her then and to you today, focuses 
primarily on deaths, attempted suicides, escapes of inmates and officer 
safety issues. While we have visited only 27 of the 74 detention 
facilities in Indian country, we assume that similar incidents have 
occurred at other detention facilities. Therefore, we believe it is 
imperative that BIA takes immediate action to alleviate these 
potentially life-threatening situations at all Indian detention 
facilities.
    Under the Indian Law Enforcement Reform Act of 1990, BIA is 
required to provide law enforcement services on reservations. In 
addition, under the Indian Self-Determination Act, BIA provides funding 
to tribes for detention services. Of the 74 detention facilities in 
Indian country, 20 are operated by BIA's Office of Law Enforcement 
Services [OLES], 46 receive BIA funding for detention services under 
Public Law 96-638, and 8 are operated by tribes. Of the 74 facilities, 
28 house adult inmates, 11 house juveniles, and 35 house a combination 
of both adults and juveniles.
    For many years the BIA detention program has been characterized as 
drastically understaffed, underfunded, and poorly managed. BIA's 
Director of Law Enforcement has oversight authority for BIA-operated 
and 638-contract detention facilities. Until very recently the Director 
oversaw these facilities through six district commanders and with a 
three person detention staff at OLES Headquarters.
    In most of the facilities we have visited, basic jail 
administration procedures are not followed and many detention managers 
and their staff have not received professional, certified training in 
detention procedures. In fact, BIA OLES officials admitted to us that 
none of their detention facilities ``come close'' to meeting BIA's 
standards for operation, which derive from nationally recognized 
detention standards. BIA's detention program is riddled with problems 
and, in our opinion, is a national disgrace with many facilities having 
conditions comparable to those found in third-world countries. 
Unfortunately, BIA appears to have had a ``laissez-faire'' attitude in 
regard to these horrific conditions at its detention facilities.
    Based on our visits, we discovered that serious incidents are not 
always communicated up the chain of command. Our review of the Serious 
Incident Log maintained by the OLES detention program and a similar log 
kept by the OLES internal affairs unit revealed that many of the 
incidents we identified occurring within the last 3 years were not 
contained in these logs. In fact, during this 3-year timeframe we found 
close to 500 serious incidents--including deaths, suicide attempts, and 
escapes that were either undocumented or not reported to the BIA/OLES.
    The following are some examples of the serious situations we have 
identified so far in our assessment.
    Deaths and Suicides: We learned of 10 deaths from the facilities we 
visited. Five of these deaths were suicides and five were non-suicides. 
Inexplicably, only five of these deaths had been reported to OLES. 
Among those deaths reported to OLES is the recent death of a 16-year-
old student who died while in a detention cell at the Chemawa Indian 
School in Oregon. BIA operates the boarding school which has a 
detention facility. This case is under active investigation by my 
office in conjunction with the U.S. Attorney in Portland, OR.
    In March 2003, a 15-year-old inmate hanged herself at the BIA-
operated Zuni Adult and Juvenile Detention Facility in New Mexico. 
According to the facility director, correctional officers at the time 
were ``off-line for approximately 30 minutes,'' handling other duties, 
and were not properly overseeing the cell population.
    Similarly, at the BIA-operated Hopi Adult and Juvenile Facility in 
Arizona, an intoxicated inmate died of asphyxiation in 2003. According 
to the Acting Lead Correctional Officer, this occurred because the two 
officers on duty were ``more interested in cleaning up the office'' 
than observing inmates.
    Attempted Suicides: Based on our findings, suicide attempts appear 
to be a regular occurrence at many of these facilities. At the BIA-run 
Northern Cheyenne Detention Facility in Montana there have been an 
alarming 41 suicide attempts within the last 3 years. Only two of those 
incidents were actually reported to the OLES.
    At many of the facilities, we found multiple suicide attempts made 
by the same inmate. For example, during 2001, an individual detained at 
the Shiprock facility in New Mexico attempted to hang himself seven 
times using articles of clothing or towels left in the cell. The 
correction officer's response was quite elementary--if the inmate tried 
to hang himself with his socks, they took his socks away; if he tried 
to hang himself with his towel, they took the towel away--until finally 
the inmate was left in his cell without any clothing.
    Prisoner Escapes: For the most part, the correctional officers at 
these facilities convey stories of prisoner escapes with an air of 
casual inevitability. In fact, our impression is one of collective 
acceptance. In our interviews, correctional officers who discussed 
escapes also told us that it is simply not possible to prevent inmates 
from escaping. Since the majority of these facilities often function 
with only a single officer on duty, officers explained that they simply 
cannot ``keep an eye'' on everyone. In addition, we found that some 
facilities do not notify local law enforcement of prisoner escapes. 
This is not only disconcerting, it is irresponsible to allow escaped 
prisoners to travel freely in a community and surrounding areas while 
the local law enforcement authorities have no information about their 
escapes.
    Physically rundown and deplorably maintained, many of the 
facilities provide ample opportunity for escape. At one facility, the 
chain-link fence surrounding the outdoor recreation yard was held 
together and locked by a set of handcuffs because the inmates had 
learned the combination to the cipher lock on the gate. While many of 
the recreation yards at these facilities are fenced-in and crowned with 
barbed wire, there seems to be a universal acceptance among the 
correctional officers that if inmates want to climb over the fence and 
escape, they will.
    From weakened and deteriorating locks on cell doors to broken 
windows in inmate dormitories, the interior of many of these facilities 
is in extremely poor condition and therefore does nothing to deter 
prisoners who set out to escape. For example, the wire-meshed windows 
in many of the cells at the White Buffalo Youth Detention Center in 
Montana are loosely encased in a crumbling wall and, with the 
application of some pressure, can be easily removed from their housing. 
According to the acting director at the detention center, these 
``removable windows'' have, in the past, provided a vehicle of escape 
for a number of detained youths.
    Perhaps even more disturbing than the actual circumstances and 
frequency of inmate escapes at these facilities are the lack of 
response and importance placed on these incidents by those working at 
the facilities, both correctional officers and facility directors, 
alike. At the Shiprock Adult detention facility in New Mexico, one 
officer chuckled in response to our question about escapes, and said, 
``Oh yeah, they happen.'' She then said that a prisoner had escaped 
from her in June 2003, on foot and in ankle-shackles while she was 
ushering a line of prisoners from the facility to the courthouse across 
the courtyard. Since she was the only officer on duty at the time, she 
said that she could not pursue the fleeing inmate and leave the other 
prisoners unattended. The officer told us that to the best of her 
knowledge that prisoner had not yet been apprehended.
    Officer Safety: One of the most common problems we found while 
visiting these facilities is lack of staffing. In many cases, having 
only one correctional officer on duty per shift is not unusual; it is 
common practice.
    At Mescalero in New Mexico, a female correctional officer was 
working alone when she was confronted at knife-point by a former inmate 
who entered the facility through an unlocked door. Tragedy was averted 
when the officer locked herself into a detention cell. An inmate at the 
jail convinced the intruder to leave the officer alone, while a second 
inmate summoned the police.
    The San Carlos facility in Arizona has only four correctional 
officers on staff to operate what they feel is an overcrowded facility. 
To address this situation, the facility has placed a 24-hour, 7-day-a-
week ``lockdown'' on inmates. Although lockdown is not unusual as a 
short-term solution for an acute problem in a detention facility, it 
could lead to an unsafe and dangerous environment long-term. At San 
Carlos, a detention officer on duty has no one for back up if a medical 
emergency or conduct problem arises. When an officer is working alone, 
he or she must either wait for assistance or act independently, both of 
which risk placing themselves or inmates in a potentially life-
threatening situation.
    At the Blackfeet facility in Montana, staff told us there is never 
more than one correctional officer on duty. Furthermore, twice a week, 
the officer on duty also functions as the facility cook to prepare 
inmates' meals, leaving the facility unsupervised during meal 
preparation time. At this same facility, one of the dispatchers said 
that her husband, a correctional officer at the facility, had been 
working alone and was attacked by an inmate. According to the 
dispatcher, the sound of the other inmates banging on doors was the 
only thing that alerted her to the incident and prevented a potential 
fatality. Unfortunately, this incident does not appear to be an 
exceptional case; the BIA district commander told us, ``Every officer 
here has been assaulted.''
    Aside from a lack of officers on staff, the current officers at 
these facilities are, for the most part, poorly trained. This lack of 
training not only hinders the officers' ability to properly document 
incidents and follow standard procedures, but also leaves the officers 
unprepared to prevent physical harm that may be targeted against them 
or against inmates. In fact, one district commander stated, ``We've 
never received any training on how to operate a detention facility.'' 
When asked if his facility followed BIA standards, the commander 
quipped, ``Most BIA standards can't be met, so why even try?''
    In addition to officer safety, the safety of the inmates themselves 
must be considered. Officers who are improperly trained or who have not 
undergone thorough background investigations may become a liability. 
Recently, a correctional officer working at the White Buffalo Youth 
Detention Center in Montana was convicted of raping a 17-year-old 
female inmate while transporting her from the facility to receive 
medical treatment.
    During my discussion with the Secretary in April, I made a number 
of recommendations to her including instituting new reporting protocols 
and the prompt investigation by BIA of any serious incident such as 
those I have cited today. I was pleased by her immediate response to my 
briefing. Following our meeting, she tasked Associate Deputy Secretary 
James Cason along with Assistant Secretary David Anderson to begin 
addressing the concerns I raised. To assist them in this effort, she 
also made a request to DOJ for an experienced corrections professional 
from the Bureau of Prisons to be detailed to BIA. That person is now on 
board and I detect a new sense of urgency about these concerns at BIA.
    Our final report, which we hope to have finished at the end of the 
summer, will provide the Department with additional findings and 
recommendations regarding funding, detention standards and policies, 
detention facility maintenance, health care and social services at the 
detention facilities, and training and hiring practices of detention 
personnel.
    The responsibility for the conditions and failings we have found at 
Indian detention facilities can not be attributed to any particular 
individual or Administration. Some of these problems are decades old. 
Thus, the solutions will not be easy to achieve and may take 
considerable time, effort and funding. However, nothing less than a 
Herculean effort to turn these conditions around would be morally 
acceptable.
                                 ______
                                 

  Prepared Statement of Darrel Martin, President, Fort Belknap Indian 
   Community Council of the Gros Ventre and Assiniboine Tribes, Fort 
                           Belknap Agency, MT

    Greetings from the Gros Ventre and Assiniboine Tribes of the Fort 
Belknap Indian Community, Montana. On behalf of the tribal government 
of the tribes, I thank you for the opportunity to provide testimony to 
this committee on the important topic of tribal detention facilities.
    I am an enrolled member of the Gros Ventre Tribe, and serve our 
tribal council as the tribal president. The Fort Belknap Indian 
Reservation is located in North Central Montana, approximately 200 
miles north of Billings, the largest city in Montana. Fort Belknap 
Agency, the location of tribal headquarters, lies about 150 miles 
northeast of Great Falls, MT, the closest city with a certified 
juvenile detention facility.
    Adult Detention Facilities. At Fort Belknap, a single tribal jail 
provides adult detention facilities to over 5,000 enrolled members. The 
jail was recently reviewed, was determined deficient and can no longer 
house inmates for more than 72 hours. Inmates needing to be detained 
are housed at the Blaine County jail, a 1-hour drive from some of our 
reservation communities, or at facilities on the Fort Peck Reservation, 
at least a 3-hour drive from Fort Belknap Agency.
    Our jail, reconstructed from other facilities about 35 years ago, 
is located at Fort Belknap Agency in the northern part of our 
Reservation. It was condemned 10 years ago, as not meeting jail 
standards. It was rehabilitated less than 10 years ago, only to be 
redetermined as deficient in the last 6 months.
    Our police department has had to transport prisoners on a regular 
basis to other facilities. The cost of transportation has been 
significant, as it often requires overtime for officers to shuttle 
prisoners back and forth on a drive that can be 6 hours round trip in 
good weather. Our winters are long and often bitterly cold. In poor 
weather, trips can be delayed or extended to as long as 10 hours, round 
trip.
    The lack of a local jail has caused logistical difficulties for our 
tribal court. The transportation of prisoners to other jails has 
continued to cause budget difficulties for our police department. 
Paying for offsite detention has similarly caused budget difficulties 
for our police department. The lack of a local jail has affected 
detention decisions by both our police department and tribal court 
judges. Because of the difficulties in detaining individuals, it 
happens that people are released who should be detained. This causes 
risks to the community.
    The families of detainees are often unable to travel the distances 
required to visit family members. Counseling alternatives available on 
reservation are seldom available at distant locations.
    In the last 35 years, we have watched as every other tribe in 
Montana has had a new jail facility built. We don't begrudge such 
facilities. Other tribes certainly have needed jails. But Fort Belknap 
has equally needed a facility, and has only been able to secure moneys 
to rehabilitate starkly inadequate buildings. Those short term fixes 
have not worked. We need a long-term solution.
    We can fully appreciate that money is hard to come by right now. 
Nevertheless, basic law enforcement and the ability to detain people 
who break the law is the most basic of governmental functions. We 
urgently call on Congress to help us in this effort.
    Juvenile Detention Facilities. We have never had a juvenile 
detention facility on our reservation. For several years, we have 
contracted to place youth in the Blaine County youth detention 
facility, about 25 miles away. However, this facility will close 
shortly, as it does not meet state standards. It has not provided 
counseling and treatment to youths detained.
    The closest certified facility is located in Great Falls, MT, 
approximately 150 miles from Fort Belknap Agency, and nearly 200 miles 
from the southern communities on our reservation. These distances are 
simply unworkable in providing adequate services to youth and their 
parents.
    Limited funding exists to detain youths. Limited funding exists to 
provide counseling and treatment to youth and their families. Many 
families simply don't have the resources to travel to Great Falls to 
visit their children. For nearly 6 months of each year, traveling such 
distances is simply dangerous, because of cold weather and difficult 
roads.
    We need a solution at Fort Belknap to detain youth locally. 
Providing timely, routine consequences to youth can make a difference 
in their lives. We urgently call on Congress to help us in this effort 
also. Thank you for your willingness to address these important 
concerns.
                                 ______
                                 

Prepared Statement of John Yellow Bird Steele, President, Oglala Sioux 
                         Tribe, Pine Ridge, SD

    The Oglala Sioux Reservation is over 2 million acres in size and 
has a population of approximately 50,000. We currently have three 
detention facilities, one of which is a juvenile facility. Our 
facilities are tribally operated under a Pub. Law 93-638 contract.
    The adult detention centers in Kyle and Pine Ridge contain 24 and 
22 beds, respectively. The Pine Ridge Correctional Facility is 
currently staffed by nine correctional officers, one lead officer, one 
facility administrator and two cooks. We house both male and female 
inmates with an average daily occupancy rate of 33 inmates per day, 
therefore overcrowding is a constant problem. This is particularly true 
on the first of every month throughout the year, when 100 arrests a day 
occur. The overcrowding often forces us to allow offenders to go free. 
We are drastically underfunded which, in addition to causing 
overcrowding, has burdened us with inadequate facilities and problems 
which arise from being understaffed. Our juvenile facility is 
understaffed due to lack of adequate funding and our inmate to staff 
ratio at the Kyle Correctional facility is 35 to 1. These problems have 
translated into our inability to properly secure the facilities and the 
inmates.
    Our facilities are inadequate. Because the volume of inmates is 
greater than the maximum capacity of the facilities, the buildings have 
deteriorated so that they are in disrepair and suitable for 
condemnation. At the adult facilities we are unable to provide adequate 
drinking water or bathroom facilities. Since we do not have sufficient 
shower facilities, we must move inmates from cell to cell to provide 
them access to a working shower. This is both time-consuming and poses 
security threats particularly in regard to officers' safety. 
Additionally, we have facility maintenance deficiencies such as our 
ventilation system which breaks down often, particularly in the summer 
months, so we are forced to use fans in the cell doorways. This too has 
affected our ability to maintain a secure environment. At the Pine 
Ridge Correctional Facility, we are plagued with inadequate lighting, 
no sprinkler system, and no exercise or outdoor areas for the inmates.
    Inadequate facilities and under-staffing have led to a number of 
escapes. From January 1, 2004 to May 31, 2004, 30 individuals have been 
charged with escape from the Pine Ridge Correctional Facility. These 
escapes have occurred both inside the facility due to a lack of a 
secure perimeter fence and inoperable gate, and outside the facility 
during the transportation of inmates to court or to obtain health care. 
Any one of these inadequacies alone is cause for concern, and yet we 
must deal with all of them on a daily basis.
    Equally distressing is our inability to provide onsite 
rehabilitation services such as alcoholics anonymous, counseling, and 
traditional ceremonies. Since alcohol is illegal on the reservation, we 
have a high number of prisoners who are arrested for intoxication, but 
no way to provide treatment.
    To address these problems, the Oglala Sioux Tribe participates in 
the ``Circle Project,'' a Department of Justice Demonstration Program 
for enhancing tribal criminal justice programs. The Circle Project is 
designed to introduce a multi-disciplinary approach to unique and long-
standing problems of high alcohol-related crime rates on Reservations 
such as Pine Ridge. As part of the Circle Project, the tribe has 
enhanced its community policing program and improved the administration 
of its Public Safety Department, It has also designed and is receiving 
construction funds from Department of Justice [DOJ] for a multi-
disciplinary direct-supervision corrections facility on the 
reservation. The new facility shall combine in-patient alcohol 
counseling with detentions, for the first time. It will be for 
sentenced individuals only. Since the new facility is not a holding 
facility, it will not alleviate the overcrowding in our current 
facilities. Therefore, overcrowding will continue to be a problem and 
we will be forced to transport/relocate inmates to other detention 
facilities in other States thereby increasing our costs associated with 
housing and transportation. Additionally, we are forced to use new 
facility transition money to supplement existing facilities. Without 
this source of funding we would be forced to cut much-needed current 
detention staff.
    While construction efforts progress, our growing concern is the 
lack of funds for the facility's operation. The state-of-the-art 
facility cannot be left to sit empty or to run inefficiently. An 
estimated $2,176,395.00 is needed for detention operations and 
facilities maintenance. This funding would flow through the BIA's 
Office of Law Enforcement Services and Office of Facilities Management 
and Construction budgets. The BlA supports our estimated costs and has 
requested an increase in their appropriations for these purposes.
    We also need funding for the operation of the detoxification aspect 
of the facility. Our immediate need is the hiring of a Detox/Treatment 
Director to develop facility operating standards; the estimated cost is 
$124,265.00. We also need overall detox/treatment operating funds to 
cover staff (including the aforementioned Director) and program costs; 
the estimated annual cost totals $1,602,227.00. For efficient and 
continuous operation, this funding must be recurring each year, not 
grant based, and could be earmarked in the SAMHSA budget.
    We urge Congress to look at the need for overall increases in the 
national budget for these issues. We are in a crisis situation. Tribes 
submit their unmet needs each year, but they are only addressed in a 
piecemeal manner. Long-term change is needed in the area of Indian 
Detention Facilities and increased funding is a necessary first step in 
meeting our specific needs, of course, but also in the overall national 
budget for detention center funding. We look forward to working with 
Congress to address these important issues.

[GRAPHIC] [TIFF OMITTED] T4555.001

[GRAPHIC] [TIFF OMITTED] T4555.002

[GRAPHIC] [TIFF OMITTED] T4555.003

[GRAPHIC] [TIFF OMITTED] T4555.004

[GRAPHIC] [TIFF OMITTED] T4555.005

[GRAPHIC] [TIFF OMITTED] T4555.006

[GRAPHIC] [TIFF OMITTED] T4555.007

[GRAPHIC] [TIFF OMITTED] T4555.008

[GRAPHIC] [TIFF OMITTED] T4555.009

[GRAPHIC] [TIFF OMITTED] T4555.010

[GRAPHIC] [TIFF OMITTED] T4555.011

[GRAPHIC] [TIFF OMITTED] T4555.012

[GRAPHIC] [TIFF OMITTED] T4555.013

[GRAPHIC] [TIFF OMITTED] T4555.014

[GRAPHIC] [TIFF OMITTED] T4555.015

[GRAPHIC] [TIFF OMITTED] T4555.016

[GRAPHIC] [TIFF OMITTED] T4555.017

[GRAPHIC] [TIFF OMITTED] T4555.018

[GRAPHIC] [TIFF OMITTED] T4555.019

[GRAPHIC] [TIFF OMITTED] T4555.020

[GRAPHIC] [TIFF OMITTED] T4555.021

[GRAPHIC] [TIFF OMITTED] T4555.022

[GRAPHIC] [TIFF OMITTED] T4555.023

[GRAPHIC] [TIFF OMITTED] T4555.024

[GRAPHIC] [TIFF OMITTED] T4555.025

[GRAPHIC] [TIFF OMITTED] T4555.026

[GRAPHIC] [TIFF OMITTED] T4555.027

[GRAPHIC] [TIFF OMITTED] T4555.028

[GRAPHIC] [TIFF OMITTED] T4555.029

[GRAPHIC] [TIFF OMITTED] T4555.030

[GRAPHIC] [TIFF OMITTED] T4555.031

[GRAPHIC] [TIFF OMITTED] T4555.032

[GRAPHIC] [TIFF OMITTED] T4555.033

[GRAPHIC] [TIFF OMITTED] T4555.034

[GRAPHIC] [TIFF OMITTED] T4555.035

[GRAPHIC] [TIFF OMITTED] T4555.036

[GRAPHIC] [TIFF OMITTED] T4555.037

[GRAPHIC] [TIFF OMITTED] T4555.038

[GRAPHIC] [TIFF OMITTED] T4555.039

[GRAPHIC] [TIFF OMITTED] T4555.040

[GRAPHIC] [TIFF OMITTED] T4555.041

[GRAPHIC] [TIFF OMITTED] T4555.042

[GRAPHIC] [TIFF OMITTED] T4555.043

[GRAPHIC] [TIFF OMITTED] T4555.044

[GRAPHIC] [TIFF OMITTED] T4555.045

[GRAPHIC] [TIFF OMITTED] T4555.046

[GRAPHIC] [TIFF OMITTED] T4555.047

[GRAPHIC] [TIFF OMITTED] T4555.048

[GRAPHIC] [TIFF OMITTED] T4555.049

[GRAPHIC] [TIFF OMITTED] T4555.050

[GRAPHIC] [TIFF OMITTED] T4555.051

[GRAPHIC] [TIFF OMITTED] T4555.052

[GRAPHIC] [TIFF OMITTED] T4555.053

[GRAPHIC] [TIFF OMITTED] T4555.054

[GRAPHIC] [TIFF OMITTED] T4555.055

[GRAPHIC] [TIFF OMITTED] T4555.056

[GRAPHIC] [TIFF OMITTED] T4555.057

[GRAPHIC] [TIFF OMITTED] T4555.058

[GRAPHIC] [TIFF OMITTED] T4555.059

[GRAPHIC] [TIFF OMITTED] T4555.060

[GRAPHIC] [TIFF OMITTED] T4555.061

[GRAPHIC] [TIFF OMITTED] T4555.062

[GRAPHIC] [TIFF OMITTED] T4555.063

[GRAPHIC] [TIFF OMITTED] T4555.064

[GRAPHIC] [TIFF OMITTED] T4555.065

[GRAPHIC] [TIFF OMITTED] T4555.066

[GRAPHIC] [TIFF OMITTED] T4555.067

[GRAPHIC] [TIFF OMITTED] T4555.068

[GRAPHIC] [TIFF OMITTED] T4555.069

[GRAPHIC] [TIFF OMITTED] T4555.070

[GRAPHIC] [TIFF OMITTED] T4555.071

[GRAPHIC] [TIFF OMITTED] T4555.072

[GRAPHIC] [TIFF OMITTED] T4555.073

[GRAPHIC] [TIFF OMITTED] T4555.074

[GRAPHIC] [TIFF OMITTED] T4555.075

[GRAPHIC] [TIFF OMITTED] T4555.076

[GRAPHIC] [TIFF OMITTED] T4555.077

[GRAPHIC] [TIFF OMITTED] T4555.078

[GRAPHIC] [TIFF OMITTED] T4555.079

[GRAPHIC] [TIFF OMITTED] T4555.080

[GRAPHIC] [TIFF OMITTED] T4555.081

[GRAPHIC] [TIFF OMITTED] T4555.082

[GRAPHIC] [TIFF OMITTED] T4555.083

[GRAPHIC] [TIFF OMITTED] T4555.084

[GRAPHIC] [TIFF OMITTED] T4555.085

[GRAPHIC] [TIFF OMITTED] T4555.086

[GRAPHIC] [TIFF OMITTED] T4555.087

[GRAPHIC] [TIFF OMITTED] T4555.088

[GRAPHIC] [TIFF OMITTED] T4555.089

[GRAPHIC] [TIFF OMITTED] T4555.090

[GRAPHIC] [TIFF OMITTED] T4555.091

[GRAPHIC] [TIFF OMITTED] T4555.092

[GRAPHIC] [TIFF OMITTED] T4555.093

[GRAPHIC] [TIFF OMITTED] T4555.094

[GRAPHIC] [TIFF OMITTED] T4555.095

[GRAPHIC] [TIFF OMITTED] T4555.096

[GRAPHIC] [TIFF OMITTED] T4555.097

[GRAPHIC] [TIFF OMITTED] T4555.098

[GRAPHIC] [TIFF OMITTED] T4555.099

[GRAPHIC] [TIFF OMITTED] T4555.100

[GRAPHIC] [TIFF OMITTED] T4555.101

[GRAPHIC] [TIFF OMITTED] T4555.102

[GRAPHIC] [TIFF OMITTED] T4555.103

[GRAPHIC] [TIFF OMITTED] T4555.104

[GRAPHIC] [TIFF OMITTED] T4555.105

[GRAPHIC] [TIFF OMITTED] T4555.106

[GRAPHIC] [TIFF OMITTED] T4555.107

[GRAPHIC] [TIFF OMITTED] T4555.108

[GRAPHIC] [TIFF OMITTED] T4555.109

[GRAPHIC] [TIFF OMITTED] T4555.110

[GRAPHIC] [TIFF OMITTED] T4555.111

[GRAPHIC] [TIFF OMITTED] T4555.112

[GRAPHIC] [TIFF OMITTED] T4555.113

[GRAPHIC] [TIFF OMITTED] T4555.114

[GRAPHIC] [TIFF OMITTED] T4555.115

[GRAPHIC] [TIFF OMITTED] T4555.116

[GRAPHIC] [TIFF OMITTED] T4555.117

[GRAPHIC] [TIFF OMITTED] T4555.118

[GRAPHIC] [TIFF OMITTED] T4555.119

[GRAPHIC] [TIFF OMITTED] T4555.120

[GRAPHIC] [TIFF OMITTED] T4555.121

[GRAPHIC] [TIFF OMITTED] T4555.122

[GRAPHIC] [TIFF OMITTED] T4555.123

[GRAPHIC] [TIFF OMITTED] T4555.124

[GRAPHIC] [TIFF OMITTED] T4555.125

[GRAPHIC] [TIFF OMITTED] T4555.126

[GRAPHIC] [TIFF OMITTED] T4555.127

[GRAPHIC] [TIFF OMITTED] T4555.128

[GRAPHIC] [TIFF OMITTED] T4555.129

[GRAPHIC] [TIFF OMITTED] T4555.130

[GRAPHIC] [TIFF OMITTED] T4555.131

[GRAPHIC] [TIFF OMITTED] T4555.132

[GRAPHIC] [TIFF OMITTED] T4555.133

[GRAPHIC] [TIFF OMITTED] T4555.134

[GRAPHIC] [TIFF OMITTED] T4555.135

[GRAPHIC] [TIFF OMITTED] T4555.136

[GRAPHIC] [TIFF OMITTED] T4555.137

[GRAPHIC] [TIFF OMITTED] T4555.138

[GRAPHIC] [TIFF OMITTED] T4555.139

[GRAPHIC] [TIFF OMITTED] T4555.140

[GRAPHIC] [TIFF OMITTED] T4555.141

[GRAPHIC] [TIFF OMITTED] T4555.142

[GRAPHIC] [TIFF OMITTED] T4555.143

[GRAPHIC] [TIFF OMITTED] T4555.144

[GRAPHIC] [TIFF OMITTED] T4555.145

[GRAPHIC] [TIFF OMITTED] T4555.146

[GRAPHIC] [TIFF OMITTED] T4555.147

[GRAPHIC] [TIFF OMITTED] T4555.148

[GRAPHIC] [TIFF OMITTED] T4555.149

[GRAPHIC] [TIFF OMITTED] T4555.150

[GRAPHIC] [TIFF OMITTED] T4555.151

[GRAPHIC] [TIFF OMITTED] T4555.152

[GRAPHIC] [TIFF OMITTED] T4555.153

[GRAPHIC] [TIFF OMITTED] T4555.154

[GRAPHIC] [TIFF OMITTED] T4555.155

[GRAPHIC] [TIFF OMITTED] T4555.156

[GRAPHIC] [TIFF OMITTED] T4555.157

[GRAPHIC] [TIFF OMITTED] T4555.158

[GRAPHIC] [TIFF OMITTED] T4555.159

[GRAPHIC] [TIFF OMITTED] T4555.160

[GRAPHIC] [TIFF OMITTED] T4555.161

[GRAPHIC] [TIFF OMITTED] T4555.162

[GRAPHIC] [TIFF OMITTED] T4555.163

[GRAPHIC] [TIFF OMITTED] T4555.164

[GRAPHIC] [TIFF OMITTED] T4555.165

[GRAPHIC] [TIFF OMITTED] T4555.166

[GRAPHIC] [TIFF OMITTED] T4555.167

[GRAPHIC] [TIFF OMITTED] T4555.168

[GRAPHIC] [TIFF OMITTED] T4555.169

[GRAPHIC] [TIFF OMITTED] T4555.170

[GRAPHIC] [TIFF OMITTED] T4555.171

[GRAPHIC] [TIFF OMITTED] T4555.172

[GRAPHIC] [TIFF OMITTED] T4555.173

[GRAPHIC] [TIFF OMITTED] T4555.174

[GRAPHIC] [TIFF OMITTED] T4555.175

[GRAPHIC] [TIFF OMITTED] T4555.176

[GRAPHIC] [TIFF OMITTED] T4555.177

[GRAPHIC] [TIFF OMITTED] T4555.178

[GRAPHIC] [TIFF OMITTED] T4555.179

[GRAPHIC] [TIFF OMITTED] T4555.180

[GRAPHIC] [TIFF OMITTED] T4555.181

[GRAPHIC] [TIFF OMITTED] T4555.182

[GRAPHIC] [TIFF OMITTED] T4555.183

[GRAPHIC] [TIFF OMITTED] T4555.184

[GRAPHIC] [TIFF OMITTED] T4555.185

[GRAPHIC] [TIFF OMITTED] T4555.186

[GRAPHIC] [TIFF OMITTED] T4555.187

[GRAPHIC] [TIFF OMITTED] T4555.188

[GRAPHIC] [TIFF OMITTED] T4555.189

[GRAPHIC] [TIFF OMITTED] T4555.190

[GRAPHIC] [TIFF OMITTED] T4555.191

[GRAPHIC] [TIFF OMITTED] T4555.192

[GRAPHIC] [TIFF OMITTED] T4555.193

[GRAPHIC] [TIFF OMITTED] T4555.194

[GRAPHIC] [TIFF OMITTED] T4555.195

[GRAPHIC] [TIFF OMITTED] T4555.196

[GRAPHIC] [TIFF OMITTED] T4555.197

[GRAPHIC] [TIFF OMITTED] T4555.198

[GRAPHIC] [TIFF OMITTED] T4555.199

[GRAPHIC] [TIFF OMITTED] T4555.200

[GRAPHIC] [TIFF OMITTED] T4555.201

[GRAPHIC] [TIFF OMITTED] T4555.202

[GRAPHIC] [TIFF OMITTED] T4555.203

[GRAPHIC] [TIFF OMITTED] T4555.204

[GRAPHIC] [TIFF OMITTED] T4555.205

[GRAPHIC] [TIFF OMITTED] T4555.206

[GRAPHIC] [TIFF OMITTED] T4555.207

[GRAPHIC] [TIFF OMITTED] T4555.208

[GRAPHIC] [TIFF OMITTED] T4555.209

[GRAPHIC] [TIFF OMITTED] T4555.210

[GRAPHIC] [TIFF OMITTED] T4555.211

[GRAPHIC] [TIFF OMITTED] T4555.212

[GRAPHIC] [TIFF OMITTED] T4555.213

[GRAPHIC] [TIFF OMITTED] T4555.214

[GRAPHIC] [TIFF OMITTED] T4555.215

[GRAPHIC] [TIFF OMITTED] T4555.216

[GRAPHIC] [TIFF OMITTED] T4555.217

[GRAPHIC] [TIFF OMITTED] T4555.218

[GRAPHIC] [TIFF OMITTED] T4555.219

[GRAPHIC] [TIFF OMITTED] T4555.220

[GRAPHIC] [TIFF OMITTED] T4555.221

[GRAPHIC] [TIFF OMITTED] T4555.222

[GRAPHIC] [TIFF OMITTED] T4555.223

[GRAPHIC] [TIFF OMITTED] T4555.224

[GRAPHIC] [TIFF OMITTED] T4555.225

[GRAPHIC] [TIFF OMITTED] T4555.226

[GRAPHIC] [TIFF OMITTED] T4555.227

[GRAPHIC] [TIFF OMITTED] T4555.228

[GRAPHIC] [TIFF OMITTED] T4555.229

[GRAPHIC] [TIFF OMITTED] T4555.230

[GRAPHIC] [TIFF OMITTED] T4555.231

[GRAPHIC] [TIFF OMITTED] T4555.232

[GRAPHIC] [TIFF OMITTED] T4555.233

[GRAPHIC] [TIFF OMITTED] T4555.234

[GRAPHIC] [TIFF OMITTED] T4555.235

[GRAPHIC] [TIFF OMITTED] T4555.236

[GRAPHIC] [TIFF OMITTED] T4555.237

[GRAPHIC] [TIFF OMITTED] T4555.238

[GRAPHIC] [TIFF OMITTED] T4555.239

[GRAPHIC] [TIFF OMITTED] T4555.240

[GRAPHIC] [TIFF OMITTED] T4555.241

[GRAPHIC] [TIFF OMITTED] T4555.242

[GRAPHIC] [TIFF OMITTED] T4555.243

[GRAPHIC] [TIFF OMITTED] T4555.244

[GRAPHIC] [TIFF OMITTED] T4555.245

[GRAPHIC] [TIFF OMITTED] T4555.246

[GRAPHIC] [TIFF OMITTED] T4555.247

[GRAPHIC] [TIFF OMITTED] T4555.248

[GRAPHIC] [TIFF OMITTED] T4555.249

[GRAPHIC] [TIFF OMITTED] T4555.250

[GRAPHIC] [TIFF OMITTED] T4555.251

[GRAPHIC] [TIFF OMITTED] T4555.252

[GRAPHIC] [TIFF OMITTED] T4555.253

[GRAPHIC] [TIFF OMITTED] T4555.254

[GRAPHIC] [TIFF OMITTED] T4555.255

[GRAPHIC] [TIFF OMITTED] T4555.256

[GRAPHIC] [TIFF OMITTED] T4555.257

[GRAPHIC] [TIFF OMITTED] T4555.258

[GRAPHIC] [TIFF OMITTED] T4555.259

[GRAPHIC] [TIFF OMITTED] T4555.260

[GRAPHIC] [TIFF OMITTED] T4555.261

[GRAPHIC] [TIFF OMITTED] T4555.262

[GRAPHIC] [TIFF OMITTED] T4555.263

[GRAPHIC] [TIFF OMITTED] T4555.264

[GRAPHIC] [TIFF OMITTED] T4555.265

[GRAPHIC] [TIFF OMITTED] T4555.266

[GRAPHIC] [TIFF OMITTED] T4555.267

[GRAPHIC] [TIFF OMITTED] T4555.268

[GRAPHIC] [TIFF OMITTED] T4555.269

[GRAPHIC] [TIFF OMITTED] T4555.270

[GRAPHIC] [TIFF OMITTED] T4555.271

[GRAPHIC] [TIFF OMITTED] T4555.272

[GRAPHIC] [TIFF OMITTED] T4555.273

[GRAPHIC] [TIFF OMITTED] T4555.274

[GRAPHIC] [TIFF OMITTED] T4555.275

[GRAPHIC] [TIFF OMITTED] T4555.276

[GRAPHIC] [TIFF OMITTED] T4555.277

[GRAPHIC] [TIFF OMITTED] T4555.278

[GRAPHIC] [TIFF OMITTED] T4555.279

[GRAPHIC] [TIFF OMITTED] T4555.280

[GRAPHIC] [TIFF OMITTED] T4555.281

[GRAPHIC] [TIFF OMITTED] T4555.282

[GRAPHIC] [TIFF OMITTED] T4555.283

[GRAPHIC] [TIFF OMITTED] T4555.284

[GRAPHIC] [TIFF OMITTED] T4555.285

[GRAPHIC] [TIFF OMITTED] T4555.286

          United States Department of the Interior,
                                   Office of the Secretary,
                                   Washington, DC, October 7, 2004.
Hon. Daniel K. Inouye,
Vice Chairman, Committee on Indian Affairs,
 U.S. Senate, Washington, DC.

    Dear Mr. Chairman: I am pleased to provide the responses to the 
questions submitted following the June 23, 2004, Committee on Indian 
Affairs oversight hearing on Indian Tribal Detention Facilities.
    Should you have any questions, please contact my office at (202) 
208-7693.

            Sincerely,
                                   Jane Lyder, Legislative Counsel.

Spirit Lake Tribal Detention Facility

    I have been contacted by Valentino White, Sr., Chairman of the 
Spirit Lake Nation, in my State of North Dakota about the possible 
closure of its detention facility at Fort Totten. My understanding from 
the Chairman is that the tribe was not consulted by the Bureau of 
Indian Affairs before a decision was made to place the facility on the 
closure list. Like the Chairman, I am concerned about the possible 
closure of this facility and strongly urge you to keep this facility 
open.
    Question 1: Can you please tell me what the current status of the 
Fort Totten detention facility is? Has the Bureau of Indian Affairs 
engaged in government-to-government consultation with the Spirit Lake 
Nation on its possible closure? Will you commit to keeping the facility 
open?
    Answer: The Fort Totten detention facility is currently open. The 
Bureau of Indian Affairs [BIA] has not engaged in consultation with the 
tribe on closure of the facility since there is no official closure 
plan.
    We cannot make any commitments to keep any of the detention 
facilities open. Decisions will be based on the BIA's ability to ensure 
the safety and welfare of inmates and staff. If a building cannot be 
renovated to meet the minimum standards and codes, the result will be 
closure. However, we will commit to consulting with the tribes affected 
prior to moving forward with a closure plan.

Mississippi Sioux Tribes Judgment Fund Distribution Act

    On an unrelated note, I want to shift gears and raise an issue on 
the Mississippi Sioux Tribes Judgment Fund Distribution Act. In 1998, 
Congress amended the 1972 Mississippi Sioux Tribes Judgment Fund 
Distribution Act to reallocate a portion of the undistributed fund to 
the Spirit Lake Tribe, the Sisseton-Wahpeton Sioux Tribe and the Fort 
Peck Sisseton-Wahpeton Sioux Council. The reallocation was conditioned 
on the 1998 Act surviving any challenge to its constitutionality.
    Following enactment, the constitutionality of the reallocation was 
challenged in two lawsuits. The first, LeBeau v. United States, ended 
on October 15, 2002, when a final judgment sustaining the 
constitutionality of the reallocation was entered. An appeal was filed 
but was subsequently dismissed on July 8, 2003, thereby ending this 
litigation. The constitutionality of the reallocation was also 
sustained in the second suit, Loudner v. United States. The final 
judgment on this issue was entered on February 25, 2004, and was not 
appealed. Accordingly, the three tribes have a right to payment of the 
funds reallocated to them in the 1998 Act.
    After the appeal deadline expired in the Loudner case on April 26, 
2004, the tribes' legal counsel was informed by the Department of 
Justice that payment could not be made to the tribes until the court 
lifts an injunction entered in the Loudner case, some years ago barring 
payment of any of the undistributed fund without permission of the 
court. At the end of April, the Department of Justice requested 
permission from Interior to file a motion to lift the injunction. I am 
informed that on May 18, 2004, the Associate Solicitor for Indian 
Affairs recommended that this permission be granted. To date, no action 
has been taken on this recommendation.
    Question 2: Since there is no longer any legal impediment, except 
the injunction, to the payment of the tribes and since this payment is 
now statutorily mandated, and since, I am informed, the lifting of the 
injunction is not controversial and is expected to be granted without 
objection by the court or the parties. I would like to know why, for 
nearly 60 days, the Department has not responded to the Department of 
Justice's request and I would like to know when this response will 
occur.
    Answer: On August 2, 2004, the Department of the Interior advised 
the Department of Justice that it had no objections to the Court 
lifting the injunction, so long as the rights of the lineal 
descendants, who share the bulk of this fund, are protected. On 
September 9, 2004, the Court lifted the injunction. The BIA will 
process the payment accordingly.

                                 <all>

</pre></body></html>
